<html>
<title> - HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S NURSING SHORTAGE, PART II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S 
                                NURSING
                           SHORTAGE, PART II

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                 December 2, 2005 in Henderson, Nevada

                               __________

                           Serial No. 109-30

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

25-553                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001





                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                Mark Zuckerman, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 2, 2005.................................     1

Statement of Members:
    Musgrave, Hon. Marilyn N., a Representative in Congress from 
      the State of Colorado......................................     5
        Prepared statement of....................................     6
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada............................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Carpenter, Connie Stewart, EdD, RN, Director and Associate 
      Professor, Department of Nursing, The Nevada State College, 
      Henderson, NV..............................................     8
        Prepared statement of....................................    10
    Rush, Sandra, Chief Nursing Officer, St. Rose Dominican 
      Hospitals, Henderson, NV...................................    14
        Prepared statement of....................................    16
    Yucha, Carolyn, PhD, RN, FAAN, Professor and Dean, School of 
      Nursing, University of Nevada, Las Vegas, Las Vegas, NV....    17
        Prepared statement of....................................    19

Additional materials supplied:
    Ullrich, Susan, RN, MSN, EdD, Director, School of Nursing, 
      Touro University-Nevada, Henderson, NV, Statement submitted 
      for the record.............................................    35
    Vos, Helen, RN, MS, Chief Nursing Officer, MountainView 
      Hospital, Las Vegas, NV....................................    36


   HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S 
                       NURSING SHORTAGE, PART II

                              ----------                              


                       Thursday, December 2, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                           Henderson, Nevada

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m. at the 
Nevada State College, Dawson Building, 1125 Nevada State Drive, 
Henderson, Nevada, Hon. Jon C. Porter presiding.
    Members present: Representatives Porter and Musgrave.
    Staff Present: Amanda Farris, Professional Staff Member.
    Mr. Porter. Good morning, everyone. Appreciate you being 
here. Before we begin the--before we begin the formal portion 
of the meeting, President Maryanski would like to say a few 
words, so I would like to turn it over to the president. And I 
must tell you, I'm very impressed. As you know, I'm a big fan 
of Nevada State College, and thank you for allowing us to be 
here today.
    Mr. Maryanski. Thank you, Congressman, and welcome 
Congresswoman Musgrave. We're very pleased that everybody is 
here today. This is--first, let me welcome people who have not 
been to Nevada State College today. This is Nevada's newest and 
fastest growing higher educational institution.
    You're looking at the right problem at the right time in 
the right place. As you know, Nevada has the greatest per 
capita nursing shortage in the country, and we have to address 
that here. It's critical to your future, to our economic 
development and the future of our children and grandchildren.
    Also, we are at an institution in which nursing is our 
largest program. OK. Under the able leadership of Connie 
Carpenter. We've got 30 percent of our students who are in the 
nursing program, so we realize the importance. That's one of 
the reasons that Nevada State College was created.
    And you are addressing the root of the problem and the 
faculty. If we don't have faculty, we don't have nursing 
students, and then we don't have nurses and no one is going to 
get their care. So you're at the right time and the right place 
and looking at the right topic.
    I really appreciate you coming here. I hope you have a 
productive session. Unfortunately, I'm playing hooky from the 
Board of Regents meeting, and I need to get back to that. But 
Chairman Whipple has excused me and has sent his greetings to 
everyone and his enforcement of this hearing. So I'm sure it 
will go very well.
    Our co-host, Lois Becker, will be here for the entire 
meeting in case you have any questions about the college. Have 
I great session. Thank you very much.
    Mr. Porter. Thank you very much.
    Appreciate it.
    [Applause.]

 STATEMENT OF HON. JON C. PORTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Porter. I hope you can hear me OK without the 
microphone. Good.
    Again, let me say thank you very much to the president and 
the faculty and the staff here at Nevada State College, to the 
Scorpions who I have, again, a great interest, having been 
involved from the beginning with Nevada State College and the 
Nevada legislature when it was only a dream, where today it's a 
reality.
    And it's a wonderful reality, that dream that we had is now 
in place. It's a tremendous asset for our community. And, 
actually, the school in its infancy is growing by leaps and 
bounds. Like 14, 1500 student I guess now, and probably could 
take two or three times that if we had the space and had the 
faculty.
    So my complements to the folks here at Nevada State 
College, and I feel like you're part of the family. So my 
congratulations to everything that you have accomplished.
    And on the issue of today, I must say that Dr. Carpenter 
and my office and I have been working closely for a number of 
years, and, Doctor, thank you for educating me and spending so 
much time. I know your love of the profession, of the school, 
and of the community has been an inspiration for me. And as 
we--we hear statistics, and the doctor mentioned numbers, 
there's a shortage in Nevada. It's of crises proportion, the 
fact that we have a shortage of nursing professionals, health-
care professionals.
    You know, I hear different numbers all the time. Close to a 
thousand or more are short today in the community of Nevada. I 
had the good fortune of sharing my concerns with a good friend, 
Marilyn Musgrave, who is a member of Congress from Colorado. 
We've been talking about this and working on this issue 
together for almost 3 years. So we had an opportunity to talk 
in Greeley, Colorado, on Wednesday with the Congresswoman in 
her district, University of Northern Colorado.
    And I said at numerous times that we could compare notes. 
You could just change the name of the state and the crises, 
because it's almost identical.
    And we were able to receive really strong feedback to help 
us as we move forward in Colorado. It was a very windy day, and 
as I was telling my colleague, the wind blows in Nevada, also.
    But it's a very serious problem. And a lot of Members of 
Congress and the eastern U.S., they look at things differently. 
They have established structures and systems, and they're not 
necessarily even looking for facilities. They have a different 
perspective. So as a Member of Congress from, you know, the 
fastest if not--one of the fastest growing states in the 
country, we really do share some challenges with other parts of 
the county, but certainly the growth areas of Florida and Texas 
and the Southwest have a bigger challenge.
    But we expect to be short about 800,000 nurses in the next 
15 years. 800,000 nursing professionals. Imagine. And we're 
short today. But can you imagine what impact that's going to 
have on our quality of life in this country.
    Now, as I said, with the fastest growing state at seven, 
eight, 9,000 people a month, with a shortage today of health-
care professionals, with a shortage of teachers in the 
elementary and primary school, another big challenge for us, a 
lot of the challenges for health care are actually paralleled 
in the primary and secondary education.
    So as we look at solutions today for the nursing shortage, 
we can't lose sight, a lot of this has to do with educating our 
kids in the primary, secondary level, also.
    So as Dr. Carpenter and I and Marilyn Musgrave, our 
Congresswoman from Colorado, have been chatting through the 
years, we realize there's a number of areas that need to be 
addressed when it comes to encouraging students and individuals 
to get into the nursing profession. There's a recruiting piece 
that's a challenge. There's a retention piece, keeping trained 
and qualified nurses in--excited about the field.
    There's a challenge in pay and benefits for nursing 
professionals. There's a huge challenge when it comes to 
benefits and pay for someone to leave the practicing nursing 
field to become a faculty member.
    We had testimony in Colorado that in some cases, 20 or 
$30,000 difference in the possible reduction in income for 
someone to leave the practicing side of nursing to go into the 
faculty side, so that's a huge concern for us.
    But as we look at this issue from top to bottom, I know we 
have a lot of work to do, but I also applaud the industry, 
because it's unusual to have so many professionals in one field 
that really are working in the same direction. And there's a 
real spirit of cooperation between the hospitals, the doctors, 
the nurses, the--the whole infrastructure system. There's a 
spirit of cooperation, unlike most issues that we have to deal 
with. There's unusually this divide and conquer for some issues 
when it comes to DC and the political process.
    But I applaud all of you in the industry, because I think 
you all realize that we have some very, very serious 
challenges. But I really think we're in our infancy. And the 
success is going to continue what you have started, and that's 
that working together with the--the state workers are always 
impacted by health care.
    Now, we have a lot of work to do. Marilyn and I have worked 
on some legislation, and it passed recently. To help nursing 
students, up to $17,500 now can be eliminated from their debt 
for a nurse to get an education in the nursing field. There's 
also additional funds now available up to $5,000 to help 
nursing professionals waive some of their tuition fees.
    So there's a lot of things that are happening from the 
Washington level. Marilyn has worked hard, but I also--I 
believe from the bottom of my heart that as a Member of 
Congress, you didn't elect me to be the president of Nevada 
State College, and you didn't--you didn't elect me to replace 
Dr. Carpenter. You elected me and Marilyn to provide as much 
support and direction as we can to allow local communities, the 
local schools, and the local professionals to make the 
decisions that they need.
    So the meeting today, although broad in its scope because 
of the impact on the community and certainly from recruiting to 
training to retention to benefits, all of those things overlap 
and are a piece of this. But we want to make sure that today we 
focus on what we can do to get the faculty. And as we look at 
the science of this over and over again, we've determined that 
we can build some schools and we can recruit new students, but 
there is a really a problem getting faculty nationwide. To 
encourage the career path for the nursing professionals to know 
that once they enter the field, that it doesn't have to just be 
about practicing as a professional nurse, but also that there 
may be another step for them in the future, and that would 
hopefully be as a faculty member of an institution, whether it 
be private sector or public.
    And we both have--we have private and public schools here 
in Nevada that are doing a tremendous job what the tools that 
they have. So multiple things: We want to make sure the nurses 
see this as a career path, make sure that they're paid properly 
as a practicing nurse, but also as faculty.
    But today we're going to hear from some of the experts.
    And before I move on and allow my colleague to have an 
opening statement, I'd like to acknowledge that one of the 
newest members of the community of nursing educators in 
Southern Nevada is Touro University, and it's my belief that 
the masters of nursing offered by Touro will help complement 
the nursing program.
    So are there folks here from Touro.
    Welcome. We appreciate you being a part of this. There is 
plenty of business to go around. We want to make sure that we 
continue in our partnership, so welcome.
    And having said that, I'd like to formally introduce my 
friend, a Member of Congress from Colorado, Marilyn Musgrave. 
And welcome to Nevada. Appreciate you being here.
    [The prepared statement of Mr. Porter follows:]

Statement of Hon. Jon C. Porter, a Representative in Congress from the 
                            State of Nevada

    Good morning. Thank you all for joining us for this hearing to 
examine the causes and possible solutions to address the shortage of 
qualified nursing faculty at our nation's institutions of higher 
education. I'm pleased to welcome all of our witnesses here today. I 
appreciate you taking time out of your busy schedules to appear before 
the Subcommittee. I am also glad that those of you in the audience were 
able to attend.
    As many of you know, according to the American Association of State 
Colleges and Universities, by 2020 experts believe there will be a 
national shortage of more than 800,000 registered nurses. The National 
League of Nursing estimates that more than 125,000 qualified applicants 
were rejected by nursing programs in the 2003-2004 academic year. The 
shortage of nursing faculty is one of several factors that are most 
commonly cited as reasons behind this trend.
    This problem is even more severe in Nevada than in some other 
states. In fact, according to the U.S. Department of Health and Human 
Services' National Center for Health Workforce Analysis, Nevada's 
projected shortage of nurses will increase from 11% in 2000 to 27.5% in 
2020.
    While I am troubled by the magnitude of this problem, and its 
impact on Nevada I am also hopeful that the testimony we hear today 
will provide us with some additional insights as to what can be done to 
address the issue. I look forward to hearing more from our witnesses 
about the challenges the State of Nevada is facing and what is being 
done to find solutions.
    I believe that this national crisis must be confronted with 
coordinated efforts at the federal, state, and local levels. While the 
federal government must work harder to provide the resources to enhance 
the ability to train nurses, state and local governments, as well as 
private entities, will play a major role in reversing the declines in 
the nursing workforce. The national health implications of this dilemma 
are too serious, and the cost to patients too great to remain inactive. 
We must continue to look to build relationships and develop plans of 
action that will address these problems in a comprehensive manner. 
Through hearings like this, and the continued efforts of schools of 
nursing, we can educate Members of Congress as to how we can best 
overcome these issues.
    I'd also like to take this opportunity to thank Congresswoman 
Marilyn Musgrave for her interest in this issue, and her willingness to 
come to Nevada's 3rd Congressional District to discuss it further. I 
look forward to working with her as we continue to examine what can be 
done at all levels of government to address the shortage of qualified 
nursing faculty.
    Again, thank you for joining us today to provide your valuable 
insight into this most important issue. I look forward to continuing 
our work to alleviate the pressures currently being placed on the 
nursing workforce.
                                 ______
                                 

  STATEMENT OF HON. MARILYN N. MUSGRAVE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. Musgrave. Thank you. I was very grateful that the wind 
was blowing and there was a little dirt in the air. It was a 
beautiful day in Colorado when we were in Greeley, very cold 
and windy.
    We kind of all blew in the room and tried to settle down a 
little bit before it started.
    But I'm happy to be here today. Like Jon, I have a--I was 
in the state legislature before I went to Congress. I was there 
8 years, and we talked a lot about the nursing shortage, what 
we were going to do about it. We talked about the demographics 
that we're all very familiar with. Being a baby boomer, it's 
near and dear to my heart, wondering how we're going to be 
taken care of as our health care needs increase.
    And, you know, at that time we weren't talking about a 
shortage of faculty, qualified teachers for people coming into 
the nursing profession. We were much more emphasizing 
recruiting them. We were going different things like loan 
repayment assistance. Part of my district is Front Range in 
Colorado where there's tremendous growth, and the rest of it is 
out in remote, rural areas.
    Well that, of course, poses unique challenges in attracting 
health-care providers. So we worked on all of those things 
diligently, and then it started becoming apparent that to me, 
even more disappointing than not attracting people into the 
profession, we were turning people away because we did not have 
adequate faculty. To me, that's even more tragic. If you chose 
another career path, that's one thing. But if you want to be a 
nurse and you're not accepted because there's not enough 
faculty, that is just tragic.
    And I really am of the opinion that nurses really have a 
call on their life. It's a profession that is extremely 
demanding. You know, and as you look at what the situation is 
now when people go into hospitals because of a number of 
reasons, they go in more acutely ill. The demand on the nurse 
is much greater than it was in previous years.
    So I believe you have to have a call on your life to have 
the job satisfaction to stay in the profession. And I find it 
just amazing that now we find ourselves turning people away 
when the need is ever increasing. And I really believe the 
expectations for people--from patients are even higher for 
quality health care.
    So we have a tremendous problem here, but when we have 
these kinds of problems, there's no simple solution, but there 
are very appropriate strategies that we should look at, and I 
look forward to the testimony today.
    And like Congressman Porter said, there are striking 
similarities between Nevada and Colorado with our states facing 
very, very similar situations. So I look forward to the 
testimony. I'm happy to be here today in a facility where good 
education is going on and, Jon, I commend you for your efforts 
in this area.
    Thank you.
    [The prepared statement of Mrs. Musgrave follows:]

  Statement of Hon. Marilyn N. Musgrave, a Representative in Congress 
                       from the State of Colorado

    Good morning. Thank you all for being here today. I would like to 
extend my appreciation to Congressman Jon Porter for inviting me to 
Nevada to learn more about this urgent matter. He has been a leader on 
this issue and I am grateful for his insight this morning.
    Our country is confronting a nursing shortage that will have a 
significant impact on the health care in our country. Last year, the 
U.S. Bureau of Labor Statistics projected that more than one million 
new and replacement nurses will be needed by 2012.
    According to a 2002 health report, 44 states are expected to have 
shortages of registered nurses by the year 2020.
    In Colorado, the state where I am from, the lack of registered 
nurses is twice the national average. The nursing shortage in our state 
is currently estimated to be 11 percent short of demand, and is 
expected to nearly triple, to 30 percent, by 2020 if current trends 
continue. This is a growing problem that demands our urgent attention.
    Demand for nurses is projected to increase as population grows, 
baby boomers enter retirement, and medical advances extend life span. 
In contrast, the supply of nursing professionals is expected to decline 
as the number of nurses leaving the profession exceeds the number that 
enter.
    What many Americans do not realize is that this shortage is not 
simply a matter of inadequate enrollment in nursing programs. Thousands 
of qualified applicants to graduate nursing programs are turned away 
each year because there is a shortage of graduate-level nursing 
faculty.
    A report by the American Association of Colleges of Nursing (AACN) 
shows that US nursing schools turned away 32,797 qualified applicants 
from baccalaureate and graduate nursing programs in 2004 due to 
insufficient number of faculty, clinical sites, classroom space, 
clinical preceptors, and budget constraints. More than 2600 applicants 
were turned away from nursing programs in Colorado in 2003.
    Three quarters (76.1%) of the nursing schools point to faculty 
shortages as a reason for not accepting all qualified applicants into 
nursing programs. This academic year (2005-2006), 66% of nursing 
schools report that they have vacancies and are in need of additional 
nursing faculty to meet additional demand.
    Colorado's shortage of qualified nursing faculty at its two-year 
nursing schools is three times the national average, and nearly double 
the national average at its four-year schools.
    We anticipate this faculty shortage to escalate in the next decade 
due budget constraints, increased job competition from clinical sites, 
and the retirement of a ``graying professoriate'' of nursing faculty.
    A wave of faculty retirements is expected within the next ten 
years. Between 200 and 300 doctorally-prepared faculty will be eligible 
for retirement each year from 2003 through 2012.
    I am anxious to hear the testimony from our witnesses today. I am 
very proud of the collaborative efforts in Colorado to address the 
nursing faculty shortage. Colorado educational institutions and health 
care providers are working together to pursue strategies to strengthen 
faculty recruitment and retention.
    It is my hope that we can identify some strategies to address the 
faculty shortage in our country. I welcome your insight so that we may 
work together to prepare a nursing workforce that is prepared to meet 
the health care needs of the nation.
                                 ______
                                 
    Mr. Porter. And I--we, of course, have some rules we need 
to follow since this is a formal hearing with the Members of 
Congress, a Subcommittee on Select Education, Subcommittee 
Hearing. And I'd like to ask that we have unanimous consent for 
the hearing record to remain open 14 days for all members, 
statements, and other extraneous material referenced during the 
hearing to be submitted to the official hearing record.
    Without objection, so ordered.
    What I just said was, please know that if you don't have an 
opportunity to speak today, there is limited time. And we have 
really narrowed our focus to the profession and faculty area 
today, but I realize that there is so much more that we need to 
have.
    So for those of you here today, I encourage you to submit 
additional information. And if you could do that in about 14 
days, that way it will become part of the formal record, which 
we would then be able to use as we continue our hearings in 
D.C.
    And, again, to my colleague, I appreciate you mentioning 
the passion, and I applaud all of you that are in the field. 
Because in a society when, unfortunately, now everything is a 
1-800 number, push a button, hopefully you get through, not 
only are we, of course, as patients and customers asking for 
more, because we're really missing that tender support of 
health care where 80 some percent has to do with relationship 
in the field. It's not a 1-800.
    And to friends and all of you in the nursing field, we 
can't do it without you. We want you to be proud of your 
career. We want to make sure that you're paid well, your 
benefits are some of the best, and that we can find the best 
teachers.
    So having said that, I'm going to introduce some of our 
panelists today. We're going to hear from Dr. Connie Carpenter. 
She's Nevada State College's Director of Nursing.
    Dr. Carpenter earned an education degree at Oklahoma City 
University, Master of Science in pediatrics from the University 
of Oklahoma, same institution she earned her educational 
doctorate, educational leadership, and adult and community 
education.
    Dr. Carpenter is a pioneer in developing distant learning, 
instructional nursing programs. She's also involved in 
providing accessible education to rural areas, dot, dot, dot, 
working closely with basic high schools with a health-care 
facility, one of the--to be, if not, one of the best to help 
some of our families, so I want to add that to your resume.
    Next we'll have Ms. Sandy Rush. She's Assistant Vice 
President of Nursing at St. Rose Dominican Hospital. Ms. Rush 
earned her Registered Nurse Diploma, Master of Nursing Science, 
and Master of Arts and Management from the University of 
Phoenix. She began her career as a staff nurse at the Veteran's 
Administration Hospital in Beckley, West Virginia.
    She's also currently a spokeswoman for the Nevada 
Organization of Nurse Leaders.
    Next we'll have Dr. Carolyn Yucha.
    Ms. Yucha. Yucha.
    Mr. Porter. As professor and dean of School of Nursing at 
University of Nevada Las Vegas, Dr. Yucha earned her doctorate 
in philosophy and philo----
    Ms. Yucha. Physiology.
    Mr. Porter. Thank you.
    Ms. Yucha. Physiology.
    Mr. Porter. Yes, from the State of--this is before I've had 
a cup of Starbucks. It can only get worse.
    Let's see, from the State University of New York Health 
Science Center in Syracuse, and most recently was associate 
dean for research at University of Florida, instrumental in 
helping in develop interactive distant education for nursing in 
Nevada.
    I'd like to let you know that each are going to have 
approximately 5 minutes, and we will save our questions until 
you have had an opportunity to make your presentation. The 
advantage of a small group like this is that we will have an 
opportunity to--in a less formal setting to maybe have a little 
more interaction than we would if it were a larger hearing.
    So let me again say thank you very much.
    And, Dr. Carpenter, if you would please open.

 STATEMENT OF CONNIE STEWART CARPENTER, EdD, RN, DIRECTOR AND 
  ASSOCIATE DIRECTOR, DEPARTMENT OF NURSING, THE NEVADA STATE 
                     COLLEGE, HENDERSON, NV

    Ms. Carpenter. Thank you. I don't know if I need this or 
not, because I talk kind of softly, so I'll use it.
    Thank you very much. I particularly want to thank my 
congressman, Jon Porter, for his hard work on the nursing 
shortage. I am Connie Carpenter, the director of nursing at 
Nevada State College.
    Registered nurses, RNs, approximately 2.7 million trusted 
professionals, represent the largest health-care profession in 
American. They deliver primary, acute, and chronic care to 
millions of Americans daily. These nurses are involved in all 
practice settings including long-term care, home care, public 
health, and hospitals.
    In 2004, the U.S. Bureau of Labor Statistics ranked 
registered nursing as an occupation with the largest job 
growth, projected that over one million new nurses and 
replacement RNs would be needed by 2012.
    Correspondingly, the U.S. Will be rough ly 800,000 nurses 
short in 2020, according to the Health Resources and Services 
Administration or HRSA. This shortage calls for a significant 
and sustained increase in the number of RNs graduating each 
year and entering the workforce. The demand will not be met 
unless the approximately 1,500 schools of nursing nationwide 
have enough faculty, classroom space, clinical practice sites, 
and funding to expand enrollments.
    Nevada has the most severe nursing shortage in the U.S. 
With 520 RNs per 100,000 population, well below the national 
average of 780, according to HRSA.
    Our statewide hospital vacancy rate averages 13 percent for 
RNs in 2001. In addition, Nevada is the fastest growing state 
in the country. Its population has grown by 66 percent over the 
last 10 years, over five times faster than the national average 
of 13 percent.
    Projections indicate Nevada will maintain this ranking for 
the next 25 years. Our state also has the fastest growing 
population of elderly retirees nationwide, further increasing 
the demand for health-care services. In order to care for the 
rapidly rising number of Nevadans, the Nevada Hospital 
Association has estimated that anywhere from 662 to 1,000 more 
RNs must be added each year to the state workforce.
    To address the critical shortfall of RNs, our state 
legislature directed the Nevada System of Higher Education to 
develop a plan to double the enrollments at nursing schools. To 
date, the plan has funded 39 additional faculty positions and 
summer semesters for 2004 and 2005. Supplemental appropriations 
also were given to several nursing programs above the system 
formula. Necessary equipment was provided to expand clinical 
education, and nursing laboratories were renovated at two 
schools to make room for additional students.
    Since the statewide plan was initiated in 2003, enrollments 
have jumped from 1,091 to 1,570 students at all entry level RN 
programs at our eight schools of nursing, and those are just 
the state schools. Four of these schools offer associate 
degrees in nursing and four offer baccalaureate degrees in 
nursing.
    A new baccalaureate program will enroll its first class of 
nursing students at the University of Southern Nevada in 
January of 2006. Most of these future RNs are likely to remain 
in the state, since in the past Nevada has retain ed over 90 
percent of its nursing graduates.
    Nevada State College opened in 2003 and started its 
baccalaureate nursing program in 2004, a year earlier then 
planned. We are addressing the nursing shortage by adding a 
second admission period each year and creating an accelerated 
baccalaureate program that takes 12 months for a second-degree 
student to complete. Since May 2005, 64 nurses have graduated 
from Nevada State College, with 32 more scheduled to graduate 
in December.
    Still, in Nevada and across the nation, schools of nursing 
are struggling to expand their enrollments, primarily due to 
the lack of nurse faculty. Schools need additional faculty to 
expand enrollment levels and expand entry level enrollments and 
meet the demand for well-educated RNs.
    In a 2004 survey by the American Association of Colleges of 
Nursing, 75 percent of nursing schools cited a shortage of 
nurse faculty as the reason for turning away over 32,000 
qualified students. And like the nursing shortage, the faculty 
shortage is only expected to intensify. Faculty age continues 
to climb, and many retirements are expected, while insufficient 
numbers of younger candidates are coming up to take their 
places.
    Commonly required teaching credentials are a masters or a 
doctorate in nursing, but only 9.6 percent of RNs hold masters 
degrees and less than 1 percent hold doctorates. Moreover, 
nursing education requires close supervision with a high ratio 
of faculty to students. The Nevada State Board of Nursing 
mandates a one to eight ratio for our state.
    Faculty vacancies have been a significant obstacle for us 
at Nevada State College. We have been unable to hire faculty 
for one specialty area and just lost one of our full-time 
faculty to another local nursing program. Now we have six 
vacant faculty positions for 2006 fall. In spite of advertising 
for several months, we have received only two applications for 
these positions.
    So we must rely heavily on part-time faculty. However, with 
few graduate prepared RNs in Nevada, it is difficult to recruit 
even for the part-time positions. The Community College of 
Southern Nevada, an associate degree in nursing program here in 
Las Vegas, has five current open faculty position.
    To resolve our nation's nursing faculty shortage, we must 
all join forces, schools of nursing, employers, states, 
communities, and the Federal Government in a sustained, 
deliberate, and funded effort to increase the number of masters 
and baccalaureate care nurses becoming and remaining faculty. 
If not, it will be the patients that suffer, us will suffer.
    Thank you for your attention. I look forward to any 
questions you may have.
    [The prepared statement of Ms. Carpenter follows:]

Statement of Connie Stewart Carpenter, EdD, RN, Director and Associate 
Professor, Department of Nursing, The Nevada State College, Henderson, 
                                   NV

    Thank you, Mr. Chairman and members of the Subcommittee, and 
especially Congressman Jon Porter (R-NV) for your outstanding efforts 
on this issue. I am Connie Carpenter, the Director of Nursing at Nevada 
State College. I appreciate the invitation to testify before the 
Subcommittee and discuss how the shortage of nurse faculty contributes 
to our nationwide nursing shortage and affects associate degree and 
baccalaureate nursing education programs. It is important to note that 
registered nursing represents the largest health profession in the 
nation, with approximately 2.7 million dedicated, trusted professionals 
delivering primary, acute, and chronic care to millions of Americans 
daily across the spectrum of settings.
The Nursing Shortage
    For six years, our country has been plagued by a shortage of 
registered nurses or RNs unlike any other experienced over the past 30 
years. Most health care services involve RNs, who provide most of our 
nation's long-term care as well as the majority of patient care in 
hospitals. However, RN positions comprise 75% of all hospital 
vacancies, according to the American Hospital Association, and unfilled 
nursing positions persist throughout all health care sectors, including 
long-term care, home care, and public health. Hospitals are being 
forced to close entire patient care units; ambulances are being 
diverted to other overcrowded facilities; and surgeries are being 
cancelled due to the scarcity of appropriately educated and skilled 
RNs. The shortage is only expected to intensify over the next 15 years.
    The U.S. Bureau of Labor Statistics (BLS) has projected by 2012, 
our nation will require an additional 1.1 million new and replacement 
registered nurses. BLS has ranked registered nursing as the fastest 
growing occupation. The U.S. will be roughly 800,000 nurses short in 
2020, according to the Health Resources and Services Administration 
(HRSA), unless there is a significant and sustained increase in the 
number of RNs graduating each year and entering the workforce. These 
alarming predictions are coupled with little change in the multitude of 
contributing factors to the nursing shortage such as the aging of 
America's population, the aging nurse workforce, high numbers of RN 
retirements, and the increasing demand for more intensive health care 
services by chronically ill, medically complex patients.
    Nevada has the worst nursing shortage nationwide per capita with 
520 RNs per 100,000 population, well below the national average of 780, 
according to HRSA. The Nevada Hospital Association has estimated that 
at least 662 additional nurses will be needed per year from 2000 to 
2008, over 5,000 total, to meet demand resulting from attrition and 
increased population growth.
Bottleneck: The Nurse Faculty Shortage
    Without sufficient nurse faculty, schools of nursing cannot expand 
their capacities to educate new generations of nurses to meet the 
demand. Only through addressing the nurse faculty shortage will the 
overall nursing shortage be resolved. The faculty shortage is the 
primary barrier to increasing enrollments, cited by over 75% of the 
schools surveyed by the American Association of Colleges of Nursing 
(AACN) in 2004. As a result, at least 32,797 qualified applicants were 
turned away from schools of nursing in 2004, up sharply from 18,105 in 
2003. Some of these qualified students are being placed on waiting 
lists that may be as long as two years.
    Like the nursing shortage, the nurse faculty shortage is only 
expected to worsen with time. Faculty age continues to climb, averaging 
52 years in 2004, which narrows the number of productive years nurse 
educators can teach. Significant numbers of faculty are expected to 
retire in the coming years, and there are insufficient numbers of 
candidates in the pipeline to take their places. On average, nursing 
students take 10.5 years to earn doctorates from time of entry into a 
master's program, 2.1 years longer than other disciplines. Over half, 
53%, of nursing doctoral students are part-time. Exacerbating the 
situation is the limited pool within the existing RN workforce from 
which most nurse faculty can be drawn. According to HRSA, only 9.6% of 
practicing RNs hold master's degrees, and less than 1% (0.6%) hold 
doctorates, credentials commonly required to teach nursing.
    Indeed, schools of nursing already are having difficulty filling 
faculty positions. In 2004, schools experienced an average of 3 faculty 
vacancies each in 2004, according to AACN's special faculty vacancy 
survey. Moreover, almost a quarter, 23%, of the roughly 410 individuals 
that graduate from nursing doctoral programs each year take jobs 
outside of academic nursing. Recruiting master's-prepared faculty is 
also a challenge as well because of the great disparity between 
clinical and academic salaries.
    In Nevada, 89 qualified applicants were turned away in 2004 from 
baccalaureate nursing programs at Nevada State College and the 
University of Nevada, Las Vegas and Reno campuses.
    Furthermore, at Nevada State College, we have been unable to hire 
faculty for one specialty area and have recently lost one of our full-
time faculty to another nursing program in the area. We currently have 
six open positions for fall 2006; two are new positions. We have been 
advertising for several months and have received one application for 
the faculty positions and one application for the Assistant Director 
position. We also rely heavily on part-time faculty, however, with few 
master's prepared individuals in Nevada; it is getting much harder to 
recruit anyone for the part-time positions.
    At the Community College of Southern Nevada, an associate degree 
program, they currently have 5 open faculty positions and have doubled 
their enrollment in the nursing program since the 2002-2003 academic 
year.
Unique Challenges of Nursing Education
    Unlike other academic disciplines, nursing education faces some 
unique challenges. The primary pathway to professional nursing is the 
four-year Bachelor of Science in Nursing degree (BSN). RNs are prepared 
either through a BSN program, a two- to three-year associate degree in 
nursing program, or a three-year hospital training program. The number 
of diploma programs has declined steadily--to less than 10% of all 
basic RN education programs--as nursing education has shifted from 
hospital-operated instruction into the college and university system. 
There are approximately 1,500 schools of nursing in the U.S., with 
eight in Nevada and two new programs beginning in the spring of 2006. 
In order to practice, an RN must pass the National Council of State 
Boards of Nursing exam and hold a valid state license.
    Baccalaureate nursing programs encompass all of the course work 
taught in associate degree and diploma programs plus a more in-depth 
treatment of the physical and social sciences, nursing research, public 
and community health, nursing management, and the humanities. The 
additional course work enhances the student's professional development, 
prepares the new RN for a broader scope of practice, and provides them 
with a better understanding of the cultural, political, economic, and 
social issues affecting patients and influencing health care delivery.
    Throughout the last decade, policymakers have recognized that 
education makes a difference in providing safe and appropriate patient 
care. To meet the more complex demands of today's health care 
environment, the National Advisory Council on Nurse Education and 
Practice has recommended that at least two-thirds of the basic nurse 
workforce hold baccalaureate or higher degrees in nursing by 2010. In 
1980, almost 55% of employed registered nurses held a hospital diploma 
as their highest educational credential, 22% held the bachelor's 
degree, and 18% an associate degree.
    In comparison, now 43% of RNs possess baccalaureate or higher 
degrees, with the remaining prepared with an associate degree (34%) or 
diploma (22%). Efforts to enhance the education level of the nursing 
population are hampered by the fact that very few nurses prepared in 
associate degree programs continue their education once they begin 
working. According to the latest survey conducted by the U.S. 
Department of Health and Human Services, only 16% of associate degree-
prepared nurses obtain post-RN nursing or nursing related degrees. 
Nevada is one of several states to have articulation agreements in 
place between community colleges and four-year institutions to 
facilitate the advancement of RNs with diplomas and associate degrees 
into baccalaureate nursing programs. Nevada State College currently has 
over 50 RNs enrolled in the RN to BSN program track. The baccalaureate 
degree is required for the nurse to continue on for a master's or 
doctorate in nursing.
    For colleges and universities, nursing education is both faculty 
and resource intensive since these efforts ensure the safe teaching of 
nursing as a practice discipline. Schools require sophisticated 
laboratory equipment, computer software, and simulated hospital units 
to adequately instruct students. Nursing clinical instruction, as 
practiced today, is expensive since it is traditionally accomplished in 
small groups of students with close supervision, with a high ratio of 
faculty to students (1:8 in Nevada as mandated by the Nevada State 
Board of Nursing). This is because the learning experience includes 
assuming responsibility for caring for up to four or five patients per 
student. In addition, faculty must have education and expertise in the 
specific specialty area in which they supervise students. Therefore, 
even schools with small student enrollment require multiple faculty 
experts to represent applicable specialties and to directly supervise 
learners as they provide care to human beings.
Colleges of Nursing Respond
    In response to the nursing shortage, schools of nursing nationwide 
have been working diligently to expand enrollments. In fact, AACN found 
in a recent study that enrollments increased in 2004 by 15.5% for 
entry-level baccalaureate, master's, and doctoral nursing programs over 
the 9.1% increase experienced in 2003. These increases are attributed 
to intensive marketing efforts by the private sector, public-private 
partnerships providing additional resources to expand capacity of 
nursing programs, and state legislation targeting funds towards nursing 
scholarships and loan repayment.
    While impressive, these increases still cannot meet the demand. In 
the November 2003 issue of Health Affairs, Dr. Peter Buerhaus reported 
that nursing school enrollments would have to increase by at least 40% 
annually just to replace those nurses who retire, due to declining 
numbers of young RNs over the past 20 years. In spite of protracted 
efforts by colleges nationwide, AACN found that enrollments have 
increased only by a total of 53.5% over the last five years in entry-
level baccalaureate programs.
Potential Solutions
    There are several types of possible remedies to the nurse faculty 
shortage from the federal perspective, from within nursing education, 
and through community-based efforts. The federal government plays an 
active role in supporting the creation of nurse faculty through a 
number of loan, scholarship, and grant programs. Thanks to Congressman 
Porter, there is at least one new source of support for nursing 
education, the Graduate Assistance in Areas of National Need (GAANN) 
Program. Due to his efforts and that of his colleagues, the Secretary 
of Education designated nursing for the first time ever as ``area of 
national need'' under GAANN, allowing schools of nursing to apply for 
fellowships for outstanding doctoral students with financial need. The 
other is the possibility of extending educational loan repayment under 
the Higher Education Act to nurse faculty, practicing RNs, and others 
serving in public sector positions through the successful Porter-
McCarthy Amendment to the College Access and Opportunity Act of 2005 
(H.R. 609).
    However, the primary source of support for nursing education is 
Title VIII of the Public Health Service Act, Nursing Workforce 
Development Programs, and in particular, the Nurse Faculty Loan Program 
(NFLP). Overall, these programs provided loan and scholarship support 
to more than 28,000 nurses and student nurses in 2004, and over 400 
full-time master's and doctoral students through the NFLP. Other 
Nursing Workforce Development Programs are helpful to nurse faculty: 
the Nurse Education Loan Repayment and Scholarship program, the 
Advanced Education Nursing program, the Nursing Workforce Diversity 
program, and the Nurse Education, Practice, and Retention program. The 
U.S. Department of Labor also has supported nursing education through 
the President's High Growth Job Training Initiative, with $3 million of 
the $12 million in grant funding awarded to date, targeted to the nurse 
faculty shortage. Through the Community-Based Job Training Program, 
these funds encourage capacity-building through community-based 
strategic partnerships with community colleges, senior colleges and 
universities, health industry employers, and other local network 
resources to train workers for high growth, high demand industries such 
as registered nursing.
    Congressional legislation also has been introduced in both the 
House and the Senate to increase the capacities of schools of nursing 
via capitation grants, conceptually rooted in the Nurse Training Act 
(P.L. 94-63). Reps. Nita Lowey (D-NY), Peter King (R-NY), Lois Capps 
(D-CA) sponsored the Nurse Education, Expansion, and Development (NEED) 
Act of 2005 (H.R. 3569). The NEED Act would provide capitation grants 
to schools of nursing to hire new and retain current faculty, purchase 
educational equipment, enhance audiovisual and clinical laboratories, 
expand infrastructure, or recruit students. In the Senate, Sens. Jeff 
Bingaman (D-NM) and John Cornyn (R-TX) introduced the Nurse Faculty 
Education Act of 2005 (S. 1575). The grant funding provided by the bill 
may be used by schools to hire new or retain existing faculty, purchase 
educational resources, and support transition into the faculty role 
with the ultimate goal of increasing the number of doctorally-prepared 
nurse faculty. Priority would be given to those institutions from 
states experiencing the greatest nursing shortages. However, given the 
federal budget environment, these programs continue to receive 
inadequate funding to meet the demonstrated needs.
    Nursing education must evolve and innovate to meet the challenges 
posed by the nurse faculty shortage. The use of non-nurse faculty, when 
appropriate, must be embraced as well as interdisciplinary education. 
Encouraging the use of creative solutions, such as the increased 
utilization of distance learning, web-based tools, and simulation, will 
also help to maximize limited resources. Further, nursing education 
must facilitate graduate educational trajectories for practicing RNs, 
and promote earlier pursuit of advanced nursing degrees. Finally, 
institutions should make it possible for retired faculty to return to 
academia if they desire.
    Community-based efforts are also important. Public-private 
collaborations have allowed schools of nursing to leverage their 
existing resources, add capacity, as well as serve community needs. 
These endeavors may involve the provision of physical infrastructure, 
funding, or human resources to build the necessary capacity to increase 
enrollments.
Nevada-Based Efforts
    In Nevada, the situation is improving. In 2000, 254 students were 
enrolled in entry-level baccalaureate programs, but by 2004, that 
number had almost doubled to 446. These numbers were boosted by the 
creation of an additional program at Nevada State College, enrolling 
its first students in 2003, and the Statewide Doubling of Enrollment in 
Nursing Initiative. Through this initiative, the state schools were 
mandated by the legislature to double the enrollment in nursing 
programs. Although funding for the program was not ideal, the colleges 
and universities did receive extra monies for the initiative.
    At Nevada State College, we have undertaken the following 
initiatives to address the nursing and nurse faculty shortages: 
Implementation of the baccalaureate nursing program a year earlier than 
planned; addition of a second admission period each year; and 
implementation of an accelerated program track. Successful efforts/
strategies include admitting two classes a year and receiving a 
congressionally directed grant for the accelerated track. Since May 
2005, Nevada State College has graduated 64 nurses already with another 
32 slated to graduate in December.
Conclusion
    Deliberate intervention is required to address and resolve the 
nurse faculty shortage, or our national nursing shortage will persist 
and intensify in the coming years. To resolve our nation's nurse 
faculty shortage, we all must join forces--schools of nursing, 
employers, states, communities, and the federal government in 
sustained, deliberate, and funded efforts to increase the number of 
master's and doctorally prepared nurses becoming and remaining faculty. 
If not, it will be patients that suffer. Thank you for your attention. 
I look forward to any questions you might have.
                                 ______
                                 
    Mr. Porter. Thank you very much.
    Ms. Rush.

   STATEMENT OF SANDRA RUSH, CHIEF NURSING OFFICER, ST. ROSE 
               DOMINICAN HOSPITALS, HENDERSON, NV

    Ms. Rush. Again, I'd like to thank all of you for being 
here and giving me the opportunity to speak with you today.
    My name is Sandy Rush. I am a nurse and the chief nursing 
officer at St. Rose Dominican Hospital, the Siena Campus. I 
also serve on the executive advisory board for the Nevada 
Organization of Nurse Leaders.
    As a nursing leader, I'm responsible for creating and 
maintaining environments that are safe for our patients and 
acceptable to nursing standards of practice. This means that I, 
as well as many of my colleagues, must ensure quality of care 
and provide access to care to all who come into my facility.
    However, with the excessive growth in Nevada, it is 
becoming increasingly difficult to assure this quality and 
access to all. I would like to briefly outline the major 
obstacles, and I'll go over it quickly, some of them, because 
all of us are mentioning the same things.
    With the decreased number of nurses in Nevada, we rank 
among--the last among states and RNs per capita. Some of the 
six significant factors include, because we are one of the 
largest and faster growing regular cities in the United States, 
we and many other southwestern states are growing at a faster 
rate than we have the facilities, hospital beds, and staff to 
provide that care.
    Our nurses are getting older. Our population is getting 
older. The baby boomers are starting to retire, and experts 
believe that that may increase our nursing vacancies to rise to 
about 800,000. The nursing labor pool is aging. The average age 
for a registered nurse is 47 years old, and many nurses are 
retiring or getting ready to retire over the next 10 years.
    There's not enough nursing grads to fill our current 
staffing requirements, and there's not enough nursed educators 
to teach our new nurses. This goes to the very heart of the 
issue. In Nevada, many students are seeking to get into 
nursing. I have employees who apply to nursing programs who 
have the passion and the commitment and are already working in 
a hospital setting; however, they're not able to get a spot in 
a nursing program because there are so few educators.
    The enrollment is limited by the available faculty. And the 
law in Nevada has already been covered, and we know that part 
of the difficulty in getting faculty is that salaries for 
faculty are not competitive. And health-care providers could 
not efficiently and effectively recruit qualified nurses 
through the existing immigration visa process.
    We at St. Rose do a very good job to provide for the needs 
of both our patients and our staff; however, I can testify that 
the problems are real and very significant. There is a huge 
nursing shortage and there are no easy answers.
    St. Rose seeks to implement viable solutions that may be 
applicable on a much larger scale. We offer student nurses the 
opportunity to work as nurse apprentices. Once the student 
nurse has completed a required amount of clinical training, the 
student is allowed to work at our facility side by side with a 
registered nurse. This enables the nurse apprentice to quickly 
gain an understanding of what it's like to work in a hospital 
for a full shift every week. And we do pay the nurse apprentice 
for this learning.
    All of our full-time staff has the ability to receive up to 
100 percent tuition reimbursement per year. This enables many 
of our nurses to go back and obtain their bachelors, as well as 
their masters so that hopefully they can become faculty. We 
also make every attempt to work their schedule around their 
schooling.
    We also encourage our nurses to take some of those part-
time jobs and serve as clinical educators and, again, work 
their schedules around their school schedule. We offer our 
current nurses numerous additional classes. Our critical care 
program includes a progression of med/surg nurses through the 
educational program to become cardiovascular nurses. What this 
entails is a basic critical care program, which is an 8-week 
program that includes both didactic and clinical education.
    They then take an intermediate care or critical care class 
which is advanced, and then eventually take the cardiovascular 
care program, which is a 40-hour course plus clinical 
education, to be proficient in caring for the open-heart 
patient. What we also find is the more education that we give 
to our nurses, the more likely they are to return to school and 
get further education.
    In addition to the other benefits, we have a very active 
clinical education department. We have six in-house nurse 
educators and four clinical nurse educators which have been 
able to provide classes to over 5,000 participants. We speak 
with our nurses, what educational needs they have.
    St. Rose actively participates in health care and nursing 
organizations such as the Nevada Hospital Association, the 
Nevada Organization of Nurse Leaders, and the Southern Nevada 
Medical Industry Coalition. All are committed to addressing the 
shortage of different health-care professionals and finding 
workable solutions. We have actively supported the university 
and community colleges by contributing to nursing scholarships, 
as well as providing the colleges with moneys to support their 
labs.
    We also visit with teachers and students throughout the 
junior high and high school levels to promote the advantages of 
nursing or a health-care technical career.
    In addition to educational obstacles, health-care providers 
cannot efficiently and effectively recruit qualified nurses 
through the existing immigration visa process. It's taking us 
18 to 24 months to bring nurses into our system. By simply 
adding to the number of allowed visas for nursing positions, we 
could bring in higher qualified nurses to begin filling the 
positions, which would then enable some of our nurses to take 
additional time to complete their education.
    I strongly believe that there is no single key to resolving 
our nursing shortage issues. Rather, the solution resides in a 
multi-faceted effort, including significant educational support 
and increased channels for recruiting. As I said in the 
beginning, I'm honored to be speaking to you today, as you are 
in a unique position to positively influence this significant 
need.
    Your support for educational funding, training programs, 
informational campaigns, and new avenues for recruiting can all 
have a profound influence that can, in turn, change the tide in 
favor of the citizens you serve and, again, that's providing 
the access to the care that we so desperately need. Thank you.
    [The prepared statement of Ms. Rush follows:]

  Statement of Sandra Rush, Chief Nursing Officer, St. Rose Dominican 
                        Hospitals, Henderson, NV

    I appreciate the opportunity to speak before you today. My name is 
Sandy Rush; I am a nurse, the Chief Nursing Officer of St. Rose 
Dominican Hospitals--Siena Campus and a board member of the Nevada 
Organization of Nurse Leaders. I commend your efforts in seeking 
solutions to retain, recruit and educate nurses.
    As a nursing leader, I am responsible for creating and maintaining 
environments that are safe for patients and acceptable to nursing 
standards of practice. This means that I must ensure quality of care as 
well as provide access to care to all who come to my facility. However, 
with the excessive growth in Nevada, it has become increasingly 
difficult to ensure this quality and access. I would like to briefly 
outline the major obstacles we face and some potential solutions.
Nursing Shortage
    Our primary problem across the nation is that we have more nursing 
positions available that we have qualified registered nurses and 
nursing school candidates to fill already vacant positions and the 
problem is getting worse. According to the use Department of Labor, the 
current nursing national shortage is over 126,000, and it is likely to 
at least double over the next five to ten years.
    Although national in scope, the shortage is particularly acute in 
Nevada. In 2000, Nevada had 514.4 RNs per 100,000 people, significantly 
less than the national rate of 780.2. Nevada ranked last among states 
in RNs per capita and Nevada's problem is only going to get worse.
    There are six significant factors causing this issue to become 
continually more complex for Nevada and the nation. These are:
    1.  Nevada, especially southern Nevada, has been home to three of 
the nations top five fastest growing cities (Las Vegas, North Las Vegas 
and Henderson). Consequently, Nevada and many other southwestern states 
are growing at a faster rate than we have facilities and staff to 
provide care.
    2.  ``Baby boomers'' are getting older and requiring more care from 
our facilities. This population will begin retiring in 2008, and 
experts believe that it may cause nursing vacancies (nationally) to 
rise to 800,000 by the year 2020.
    3.  The nursing labor pool is also aging. Nationally, the average 
age for a registered nurse is 47 years old, and many nurses are 
retiring or set to retire in the next ten years.
    4.  There are not enough nursing school graduates to fill our 
current staffing requirements
    5.  There are not enough nurse educators to teach new nurses. This 
goes to the very heart of the issue. In Nevada, many students are 
seeking to get into nursing. However, there are simply not enough spots 
available as there are too few educators.
    6.  Health care providers cannot efficiently and effectively 
recruit qualified nurses through the existing immigration visa process.
Solutions
    I feel we do a very good job at St. Rose Dominican Hospitals (SRDH) 
of providing for the needs of both our patients and our nursing staff. 
However, I can testify that the problems I outlined above are very real 
and significant. There is a nursing shortage and there are no easy 
answers.
    St. Rose Dominican Hospitals is seeking and implementing viable 
solutions that may be applicable on a much larger scale.
    St. Rose Dominican Hospitals offer student nurses the opportunity 
to work as Nurse Apprentices (NAP). Once a student nurse has completed 
a required amount of clinical training, the student is allowed to work 
at one of the SRDH facilities, side by side with a registered nurse. 
The NAP is able to perform all skills learned in nursing school, 
increasing experience and perfecting skill level. The NAP is paid for 
this learning.
    All full-time staff has the ability to receive up to 100% tuition 
reimbursement per year to offset cost of tuition and books. Numerous 
scholarships for nursing and respiratory therapy have also been 
awarded. We offer progressive career advancement opportunities through 
in-house training programs for respiratory, perinatal, perioperative, 
and critical care nursing. I would like to explain how one of these 
training programs works.
    Our Critical Care Program includes a progression of a medical/
surgical nurse through the educational program to become a 
Cardiovascular Nurse.
    <bullet>  Medical Surgical Nurse for 1--2 years
    <bullet>  Basic Critical Care Program--An 8-week program that 
includes didactic and clinical education to prepare the nurse to work 
in either Intermediate Care or Critical Care
    <bullet>  Advanced Critical Care Program--A 40 hour course, taken 
one to two years after working in the Critical Care Unit that educates 
the nurse to the more advanced techniques and clinical issues in 
critical care.
    <bullet>  Cardiovascular Care--A 40 hour course plus clinical 
education to become proficient in caring for the ``Open Heart'' 
patient.
    In addition to the previously discussed benefits, St. Rose has a 
very active Clinical Education Department. With six in-house Nurse 
Educators, as well as 4 Clinical Nurse Educators, SRDH has been able to 
provide education classes to over 5,000 participants in 2003. The 
classes were identified through a variety of assessments that included 
a ``Needs Assessment'' where the nurses identified what topics that 
would like covered; and nursing leadership assessment; new practice 
requirements; and needs identified via clinical practice.
    St. Rose Dominican Hospitals actively participate in healthcare and 
nursing organizations such as the Nevada Hospital Association, the 
Nevada Organization of Nurse Leaders, and the Southern Nevada Medical 
Industry Coalition, which are all committed to addressing shortages of 
different healthcare professionals and finding workable solutions.
    We have also actively supported the University and Community 
College System of Nevada (UCCSN). These efforts have included:
    Last year contributed over $150,000 local colleges for nursing 
scholarship programs.
    <bullet>  CCSN
    <bullet>  Nevada State College
    <bullet>  UNLV
    We also visit with teachers and students in Jr. High and HS levels 
to promote the advantages of a nursing or healthcare technical career.
    In addition to educational obstacles, health care providers cannot 
efficiently and effectively recruit qualified nurses through the 
existing immigration visa process. Currently, our immigration policy 
for nurses is well over limit. It takes 18-24 months to bring nurses in 
our immigration system to the U.S. Changes in legislation are 
critically needed to aide in a short term solution. By simply adding to 
the number of allowed H1 visas for nursing positions, hundreds of 
highly qualified nurses could begin filling positions immediately.
    I strongly believe that there is no single key to resolving our 
nursing shortage issues, rather, the solution resides in a multi-
faceted effort including significant educational support and increased 
channels for recruiting both nationally and internationally. As I said 
in the beginning, I am honored to be speaking to you today, as you are 
in a unique position to positively influence this significant need. 
Your support for education funding, training programs, informational 
campaigns and new avenues in foreign nurse recruiting can all have a 
profound influence that can turn the tide in favor of the citizens you 
serve. Thank you.
                                 ______
                                 
    Mr. Porter. Thank you.
    Dr. Yucha.
    Ms. Yucha. You got that right. Thank you.
    Mr. Porter. It took me three times, but I got it.

STATEMENT OF CAROLYN YUCHA, PhD, RN, FAAN, PROFESSOR AND DEAN, 
SCHOOL OF NURSING, UNIVERSITY OF NEVADA, LAS VEGAS, LAS VEGAS, 
                               NV

    Ms. Yucha. Thank you very much. I am delighted to be here. 
I would especially like to thank you for your support of 
nursing and to help us address the nursing shortage.
    Our--you have heard many of the issues. Certainly we know 
there's a desperate nursing shortage, and the bottleneck right 
now seems to be--or is the nurse faculty shortage. There are 
simply not enough masters and doctorately prepared nurses who 
are available to teach.
    An AACN, American Association of Colleges of Nursing, 
survey found that almost 3,000 masters and doctorate 
applications were turned away from schools of nursing because 
of the shortage of faculty to teach them. And had those 3,000 
applicants been accepted, they would be available now to serve 
as nurse faculty.
    Nursing education is faculty intensive, often requiring one 
faculty member for every eight to ten students. Another AACN 
survey showed a national average of three faculty vacancies per 
schools.
    Projections show that by 2012 the faculty pool will shrink 
by at least 2,000, leaving over 2,600 unfilled positions. That 
is as of June 2005, there were 11 faculty vacancies here at 
Nevada State College and the Las Vegas and Reno campuses at the 
University of Nevada, and that's only three of the schools in 
Nevada. And I will tell you those numbers change day by day as 
faculty moves from school to school.
    Many factors contribute to the nurse faculty shortage, and 
we've covered, I think, probably all of them, including an 
aging faculty, retirements, clinical salary differentials, the 
advanced age of our graduate students doesn't leave them with 
many years to work as faculty, the length of time to obtain a 
graduate degree, especially if you're only in school part time, 
tuition and loan burden, and further RNs in the pipeline.
    To remedy the faculty shortage, action should be taken by 
first the Federal Government, second the nursing profession 
and, three, states and localities. Most Federal support is 
provided through the nursing workforce development programs 
under Title 8 of the Public Health Service Act, strengthened by 
the Nurse Investment Act of 2002.
    Thanks to Congressman Porter, the graduate assistance in 
areas of national need program in the Department of Education 
was expanded to include nursing. And the Department of Labor, 
the president's high-growth, job training initiative, is 
targeting nursing education.
    In 2005 Congress is addressing the nurse faculty shortage 
through the successful Porter/McCarthy amendment to the College 
Access and Opportunity Act, and the introduction of the Nurse 
Education Expansion and Development Act in the house and the 
Nurse Faculty Education Act in the Senate. All of these Federal 
efforts, such as capitation grants, loan forgiveness, and 
strategic public/private partnerships are helpful strategies.
    However, additional funding is needed. The nursing 
profession is also addressing the critical need for faculty. 
Faculty from other disciplines teach courses where nursing 
competencies are not required. Simulation laboratories and web-
based distance learning expands the reach of existing faculty 
to additional students.
    While these innovations are helping to expand our capacity, 
long-term solutions are still needed. Young nurses must be 
inspired to pursue graduate studies earlier in their careers, 
and we must encourage retiring faculty to remain active in 
their professions. The State of Nevada is taking a progressive 
approach with its plan to double the capacity of nursing 
programs and higher education.
    In 2004, UNLV started a doctorate and masters program in 
nursing education. Since most of all our students work full 
time and have families, we offer those programs online to 
accommodate their schedules and to stretch beyond Southern 
Nevada to reach our rural students. Our doctorate program is 
the only one in the state and had to be completed in 3 years. 
Even so, only one of five Ph.D. Students is enrolled full time.
    Our masters program can be completed in four semesters, yet 
only 6 of 14 students in this program attend full time. To 
facilitate full-time study by more students, we are seeking 
graduate scholarships through our capital campaign, which can 
be combined with the graduate assistance positions that UNLV 
has, as well as funds from the Federal Nurse Faculty Loan 
Program.
    We are also partnering with three clinical agencies to pay 
some of their masters prepared nursing staff for supervising 
eight of our students 1 day a week.
    In closing the nurse faculty shortage will continue to be a 
bottleneck in the nursing shortage unless we act quickly. We 
must have the funding to educate the nursing workforce and 
retain current RNs. Strategies should encompass state support, 
public/private sector initiatives, and increased Federal 
funding for nursing education and workforce development.
    Thank you again for the invitation to come before you 
today. I am happy to answer any questions.
    [The prepared statement of Ms. Yucha follows:]

   Statement of Carolyn B. Yucha, PhD, RN, FAAN, Professor and Dean, 
   School of Nursing, University of Nevada, Las Vegas, Las Vegas, NV

    Thank you, Mr. Chairman and members of the Subcommittee. I am 
Carolyn Yucha, Dean and Professor of Nursing at the University of 
Nevada, Las Vegas. But before I begin, I especially would like to thank 
Representative Porter for his efforts on behalf of nursing, including 
holding this field hearing. I appreciate the opportunity to come before 
the Subcommittee to discuss how the shortage of nurse faculty 
contributes to our nationwide nursing shortage. My comments today will 
focus on the ramifications of the faculty shortage on master's and 
doctoral programs in nursing. Outnumbering physicians more than four to 
one, our nation's 2.7 million committed registered nurses or RNs 
deliver an extended array of primary, acute, and preventive health care 
services in a wide range of settings. The essential services nurses 
provide often mean the difference between life and death. We must take 
action to ensure that our nation's nursing workforce remains healthy.
The Nursing Shortage
    Since 1998, the United States has experienced a shortage of RNs. 
Comprising the largest component of hospital staffs, RNs are the 
principal providers of patient care. But, 72% of hospitals reported 
experiencing a nursing shortage in 2004, according to the American 
College of Healthcare Executives. These shortages result in emergency 
room overcrowding and diversions, increased wait time for or outright 
cancellation of surgeries, discontinued patient care programs or 
reduced service hours, and delayed discharges. In addition, patient 
safety is compromised without a sufficient number of RNs. The Joint 
Commission on Accreditation of Healthcare Organizations (JCAHO) found 
in 2002 that the nursing shortage contributes to nearly a quarter of 
all adverse hospital patient events due to low nursing staff levels. 
However, our nation's nursing shortage is only expected to worsen in 
the future. The Bureau of Labor Statistics (BLS) has projected that 
more than one million new and replacement RNs will be needed by 2012. 
Although registered nursing has been identified by BLS as the top 
occupation in terms of job growth through 2012, the Health Resources 
and Services Administration (HRSA) has estimated that there still will 
be a deficit of approximately 800,000 RNs by the year 2020.
The Nurse Faculty Shortage
    The nurse faculty shortage intensifies the current nursing shortage 
by curtailing the capacity of schools of nursing to educate students. 
Nursing education is faculty intensive, just like the other health 
professions. There are insufficient numbers of master's and doctorally-
prepared nurses available to educate badly-needed current and future 
nursing students. HRSA reported in 2000 that just 9.6% of the RN 
workforce holds master's degrees, while only 0.6% holds doctorates, the 
groups from which most faculty are drawn. The American Association of 
Colleges of Nursing (AACN) conducts annual surveys of over 680 schools 
of nursing with baccalaureate and graduate programs examining 
enrollments, graduations, and faculty characteristics. In 2004, AACN 
reported 10,967 full-time nurse faculty with 47.9% holding doctoral 
degrees (nursing and non-nursing) and over half, 52.1%, holding 
master's degrees. Part-time faculty numbered 8,089. In Nevada, there 
were just 55 full-time and 20 part-time nurse faculty members at the 
University of Nevada, Las Vegas and Reno campuses, and Nevada State 
College.
    Without a sufficient pipeline of graduate nursing students, the 
nurse faculty shortage has resulted in a high number of unfilled 
positions within schools of nursing. A special survey to determine 
faculty vacancy rates was conducted by AACN in 2004. Of budgeted full-
time faculty positions in surveyed schools, 8.1% were vacant and more 
than half, 53.4%, were for faculty positions requiring the doctoral 
degree. On average, there were approximately 3 faculty vacancies per 
school. Projections through 2012 show that the faculty pool will shrink 
by at least 2,000 when compared to 2003, even after accounting for 
retirements, resignations, and additional entrants. These figures do 
not reflect the need for faculty in new or expanded programs, but 
represent only present staffing requirements. If the faculty vacancy 
rate holds steady, it is expected the deficit of nurse faculty will 
swell to over 2,600 unfilled positions by 2012. Note that just one or 
two vacant positions in a nursing program can have a considerable 
impact on the didactic and clinical teaching workload of the remaining 
faculty. Among Nevada State College, and the University of Nevada Las 
Vegas and Reno campuses, there were 11 faculty vacancies in June 2005.
    The nurse faculty shortage creates a vicious cycle by limiting the 
number of students that can be admitted to nursing education programs, 
which perpetuates the problem. In addition to almost 30,000 entry-level 
baccalaureate nursing students, AACN determined that 2,950 qualified 
applicants to master's and doctoral programs in nursing had to be 
turned away in 2004. The nurse faculty shortage was cited by responding 
schools as one of the major factors preventing schools from accepting 
all qualified applicants. In Nevada, no qualified graduate students 
were turned away, but there were only 88 total graduate nursing 
enrollees in 2004, with just two at the doctoral level. While Nevada 
has been extremely aggressive and progressive with its plan to double 
the capacity of nursing education programs in the University and 
Community College System of Nevada, other states and regions have not. 
We must work together to break the cycle.
Factors Contributing to the Shortage of Faculty
    A number of contributing factors to the nurse faculty shortage have 
been identified by AACN in its white paper, Faculty Shortages in 
Baccalaureate and Graduate Nursing Programs: Scope of the Problem and 
Strategies for Expanding the Supply, such as faculty age, departure 
from academic life, alternate employment choices by doctoral graduates, 
salary differentials, age of doctoral degree recipients and time to 
degree, fewer nurses in the educational pipeline, and expectations 
unique to nursing faculty.
            Faculty Age
    Increasing faculty age, retirements of existing faculty, and an 
inadequate number of younger replacement faculty affect the future 
supply. The mean age has increased to 54.4 years in 2004 for all 
faculty, 54.3 for doctoral faculty, and 49.2 for master's faculty 
respectively. Only 22.8% of doctoral faculty were under the age of 50 
in 2004, in contrast to 46.8% of master's faculty.
            Departure from Academic Life
    Another factor influencing the faculty shortage is the departure of 
master's and doctorally prepared faculty from academia. For example, an 
average of 410 individuals are awarded doctoral degrees in nursing each 
year, but almost a quarter, 23%, take jobs outside of academic nursing. 
Retirements account for some of the departures, but not all.
            Salary Differentials
    Salary is a major issue influencing the employment decisions of 
graduate-prepared RNs. Average salaries for clinical positions have 
risen above those for faculty positions because most universities are 
constrained in their ability to increase faculty salaries- a 
competitive disadvantage. Salary also may determine whether or not 
master's prepared nurses seek additional education. For full-time 
doctoral students especially, this foregone income may be substantial. 
The average salary of a nurse practitioner in an emergency department 
was $80,697, according to the 2003 National Salary Survey of Nurse 
Practitioners, while the average salary for a nurse faculty member was 
$60,357 in 2003 according to AACN. Debt load may also influence 
decision-making in this regard; since over 50% of nursing graduate 
students (master's and doctoral) received financial aid in the 2004-
2005 academic year according to Thomson Peterson's Undergraduate and 
Graduate Financial Aid and Undergraduate and Graduate Databases.
    In Nevada, the public Schools of Nursing have worked to increase 
their salaries, through state and university funds. At UNLV the 
starting salary for new master's prepared faculty is $60,000 for a 
nine-month contract and $90,000 for a twelve-month contract; for new 
doctorally prepared faculty the starting salary is $70,000 for a nine-
month contract and $105,000 for a twelve-month contract. These salaries 
are comparable to those in the clinical setting; it is too early to 
tell whether this will improve faculty recruitment and retention.
            Age of Doctoral Degree Recipients and Time to Degree
    Compared to other disciplines, RNs take longer to complete doctoral 
programs and are significantly older at graduation. For the 417 
doctoral graduates in 2002, the median age was 47.3 years with only 
8.6% under 35. In contrast, 33.3 years was the median for all U.S. 
research doctoral awardees. Nursing graduates completed their doctoral 
degrees in 8.8 years, on average, as compared to 7.5 years for all 
research awardees. The average time lapse for an RN between entry in a 
master's program to completion of the doctorate in nursing was 10.5 
years, 2.1 years longer than other fields. This discrepancy may result 
from the part-time status of most nursing doctoral students. In the 
fall of 2003, the 93 research-focused doctoral programs in nursing had 
a total of 3,439 enrollees and 412 graduates. But 53% of enrollees were 
part-time students, the major reason that graduates represented only 
12% of enrollees.
    In Nevada, we have only one doctoral program, a nursing PhD program 
at UNLV. This program is designed to prepare leaders as nurse educators 
who will meet the needs of the profession and society and to develop 
scholarly researchers who will advance knowledge about nursing 
education. It is offered online to meet the needs of working students 
and those residing outside of southern Nevada. Four of our five 
students are enrolled only part-time so that they can continue to work 
in their full-time positions. This means that it will take longer for 
them to complete the program and be able to fill a faculty position.
            Expectations Unique to Nursing Faculty
    In addition to the many roles and responsibilities common to all 
faculty, additional expectations are placed on nursing faculty. They 
often are expected to maintain clinical expertise, provide clinical 
instruction, and engage in faculty practice. Moreover, nursing faculty 
who supervise students in clinical settings may be responsible for an 
increasing number of critically ill patients, adding a stressful 
element not experienced by faculty in non-health care disciplines.
    In Nevada, and particularly at UNLV, doctorally prepared faculty 
must juggle their teaching assignments, which are heavier than faculty 
in other disciplines because of the clinical supervision hours, and 
develop a research program supported by external funding. In addition, 
those who are nurse practitioners must fulfill 400 hours in clinical 
practice each year to meet the requirements for continued 
certification, a requirement for those who teach in our master's level 
nurse practitioner programs.
Reversing the Trend
    There are three broad categories of remedies: federal support, 
changes within nursing education, and community efforts.
            Federal Support
    Congress has augmented support for nursing education on a number of 
occasions during the last several years. Most recently, our 
Congressman, Jon Porter (R-NV), worked with Rep. Carolyn McCarthy (D-
NY) as well as you and their other colleagues on the Education and 
Workforce Committee during the reauthorization of the Higher Education 
Act to expand existing loan forgiveness programs to include RNs. The 
agreed-to Porter-McCarthy Amendment to the College Access and 
Opportunity Act of 2005 (H.R. 609) provides $5,000 in loan repayment 
for RNs, nurse faculty and others who work in professions designated as 
``areas of national need'' for five consecutive years. Building on this 
effort, Reps. Porter, McCarthy, and nine other legislators sent a 
letter to the Secretary of Education Margaret Spellings on July 29 
requesting that she designate nursing as an ``area of national need'' 
for the purposes of the Graduate Assistance in Areas of National Need 
Program (GAANN). The letter created the impetus for the Secretary to 
issue a program announcement in the Federal Register on August 22, 
declaring nursing an area of national need along with biology, 
chemistry, computer and information sciences, engineering, geology, 
math, and physics. This was a historic first for nursing to be cited in 
a Department of Education program announcement.
    Other federal efforts include the Nurse Reinvestment Act of 2002. 
It reauthorized and expanded Nursing Workforce Development Programs, 
administered by HRSA under Title VIII of the Public Health Service Act, 
to address the inadequate supply and distribution of RNs across the 
country. The seven Title VIII grant and student programs fund nursing 
education and retention programs as well as support individual nursing 
students across the continuum, from entry-level preparation through 
graduate study. They are the largest source of federal funding for 
nursing education, providing loan and scholarship support to over 
28,000 nurses and nursing students in fiscal year 2004 alone. The 
following Title VIII programs are especially helpful for the creation 
of nurse faculty: the Nurse Faculty Loan Program, the Nurse Education 
Loan Repayment and Scholarship program, the Advanced Education Nursing 
program, the Nursing Workforce Diversity program, and the Nurse 
Education, Practice, and Retention program. An exemplar, the Nurse 
Faculty Loan Program provides grants to colleges of nursing in order to 
create a loan fund for students pursuing either a master's or doctoral 
degree on a full-time basis. Loan recipients will have up to 85% of 
their educational loans cancelled over a four-year period, if they 
agree to teach at a school of nursing. A student may receive a maximum 
loan award of $30,000 per academic year for tuition, books, fees, 
laboratory expenses, and other reasonable educational costs. In fiscal 
year 2004, 61 grants were made to schools of nursing, which in turn 
supported a projected 419 future nurse faculty members.
    In addition, the U.S. Department of Labor has awarded $12 million 
in grant funding to date, through the President's High Growth Job 
Training Initiative, with $3 million targeted to the nurse faculty 
shortage. These Community-Based Job Training Program grants aim to 
foster capacity building through community-based strategic partnerships 
with community colleges, senior colleges and universities, health 
industry employers, and other local network resources to train workers 
for high growth, high demand industries such as registered nursing.
    Legislation also has been introduced in both the House and the 
Senate to expand capacities of schools of nursing via capitation 
grants, similar to those provided through the effective Nurse Training 
Act (P.L. 94-63) during the 1970s. Reps. Nita Lowey (D-NY), Peter King 
(R-NY), Lois Capps (D-CA) sponsored the Nurse Education, Expansion, and 
Development (NEED) Act of 2005 (H.R. 3569). The NEED Act would provide 
capitation grants to schools of nursing for several purposes, including 
hiring new and retaining current faculty, purchasing educational 
equipment, enhancing audiovisual and clinical laboratories, expanding 
infrastructure, or recruiting students. In the Senate, Sens. Jeff 
Bingaman (D-NM) and John Cornyn (R-TX) introduced the Nurse Faculty 
Education Act of 2005 (S. 1575). The grant funding provided by the bill 
may be used by schools to hire new or retain existing faculty, purchase 
educational resources, and support transition into the faculty role 
with the ultimate goal of increasing the number of doctorally-prepared 
nurse faculty. Priority would be given to those institutions from 
states experiencing the greatest nursing shortages. Capitation grants, 
loan forgiveness, loan cancellation, and strategic partnerships are all 
successful strategies, but for all of these federal programs, 
sufficient funding remains an issue.
            Changes within Nursing Education
    Nursing education also must change to surmount the challenges of 
the nurse and nurse faculty shortages. In the past, nursing has 
objected to utilizing non-nurse faculty, recruiting nurse faculty with 
non-nursing degrees, and/or sharing resources and courses across 
disciplines and specialties. Nursing educators are becoming 
increasingly creative in offering high quality clinical experiences to 
students in the face of decreasing faculty resources. Many schools have 
developed formal partnerships with clinical facilities utilizing their 
expert clinicians to teach students, increasing faculty capacity. The 
creative use of technology also can provide additional immediate 
solutions to increase the capacity of faculty to support education, 
research, and practice through distance learning and Web-based media. 
Though these efforts are providing some short-term relief to the 
faculty shortage, long-term solutions to this complicated issue are 
needed.
    In the long term, graduate nursing programs may need to be 
reconfigured in ways that facilitate a clear and timely path to 
completion. Employed RNs, despite wanting to become faculty, often face 
inflexible and increased work schedules when they attempt to combine 
part-time graduate study with full-time employment due to the shortage. 
Similarly, many nurse educators continue to accept the traditional view 
that significant clinical experience is essential before an RN should 
matriculate into a graduate program. We must encourage nurses to pursue 
graduate study and the faculty role much earlier, extending their 
careers as educators extensively. Moreover, movement from undergraduate 
to graduate programs must be easy and seamless for qualified students, 
so they can assume faculty positions more quickly. By doing so, nursing 
will attract younger students, without financial and family 
responsibilities, that can afford to work part-time and study full-time 
rather than vice versa.
    Lastly, retirement often has been viewed as a mutually-exclusive 
option. Most nursing faculty members retire between the ages of 61.5 
and 63.1 years, with many productive years remaining. Many faculty 
approaching retirement would like to continue teaching in some 
capacity, but may be unable to do because of so because of restrictive 
university policies and/or retirement plan provisions. Retirement 
policies have been reconsidered at some institutions to allow retired 
faculty to return to teaching responsibilities. Nursing may do well to 
utilize these and similar ideas to encourage retiring and retired 
faculty to remain active in the full array of nursing education 
activities.
            Community Efforts
    Public private partnerships have been advantageous for schools of 
nursing by collaborating with clinical partners and other stakeholders 
to build student capacity and satisfy mutual needs. These partnerships 
take many forms and serve various functions. Some schools use expert 
practitioners to augment the nursing faculty supply. Others involve 
collaborative arrangements among nursing education programs to increase 
student enrollments. Some service partners share physical resources and 
infrastructure with schools as a means of overcoming limitations in 
clinical, classroom, and research space. Still others form partnerships 
to provide tuition forgiveness to students in exchange for work 
commitments. Partnerships have proven in some instances to be an 
effective stop-gap measure, but the ability of these individually-
brokered arrangements to provide a lasting solution to the nursing 
faculty shortage are limited.
Efforts by UNLV to Address the Faculty Shortage
    In Nevada, UNLV has been successful in developing two tracks for 
those wishing to become nurse educators. Both of these are online 
programs with students coming to campus once each year for three days 
orientation. Our master's nurse educator track is 38 credits, which can 
be completed in four semesters full-time or six semesters part-time. 
Our PhD program is 65 credits post-masters degree and can be completed 
in three years full-time or five to six years part-time. Currently 
there are six full-time and eight part-time students enrolled in the 
master's nurse educator track, with one-full-time and four part-time 
students enrolled in the PhD program.
    As part of UNLV's Capital Campaign we are specifically seeking 
graduate scholarships that we can combine with Graduate Assistant 
positions and funds from the Nurse Faculty Loan Program to offer a 
financial package that will entice students to pursue graduate 
education on a full-time basis. Finally, we have partnered with three 
clinical agencies to pay some of their master's-prepared nursing staff 
to supervise eight of our students one day a week.
Conclusion
    The nurse faculty shortage will continue to be the bottleneck to 
the nursing shortage unless swift, deliberate action is taken. To carry 
our nation forward, we desperately need a dedicated, long-term vision 
for educating the new nursing workforce and retaining current RNs with 
sufficient fiscal support to carry it out. Strategies must encompass 
state support, public-private sector initiatives, and increased federal 
funding for nursing education and research through the Public Health 
Service Act, the Higher Education Act, and other authorities. We all 
must work together, so that patient care and safety are no longer 
jeopardized by a shortage of registered nurses. Thanks again for the 
invitation to come before you today, and I will be happy to answer any 
questions.
                                 ______
                                 
    Mr. Porter. Thank you very much for your testimony.
    In combining some of the things that we learned the other 
day with today, and when we look at the mix of folks getting 
into nursing and then the next step into the faculty, there 
seems to be a real shortage of men and a real shortage of 
minority students.
    We had statistics in Colorado that--I don't have them in 
front of me, but it's staggering that the entry level, even of 
those that are going into the field today, a real small portion 
is minorities or men. Of course, the visa was well-taken and 
we'll make that a priority and we'll talk about that some more, 
but that's--that's a different piece of this.
    What can we do to encourage--again, this isn't just 
faculty, but to encourage more minorities to get into the 
profession of nursing? Are there any ideas that you would have? 
I know we're talking about scholarships and opportunities, and 
I know one thing about Nevada State College and UNLV is that 
they have been very flexible with scheduling classes. Because I 
know a lot of the entry level folks, they're also primary bread 
winner and have to balance between getting an education to 
advance professionally, but also to take care of their 
families.
    So I know that our universities and our schools here are 
doing everything they can to be flexible with schedules, but is 
there anything else we can be doing from a Federal perspective 
to help with minorities to engage more? Certainly it has its 
benefits from the heart and soul of those that are in it, but 
what can we do? Any ideas?
    Ms. Yucha. Well I can tell you some of the things that we 
have been working on. We've been submitting a HRSA grant to--
that's called Nurse Pride, and it's--we've actually submitted 
it twice now, and it is approved but not funded. This is 
related to a lack of Federal funding.
    But in this grant, we are proposing going to middle 
schools, starting at that level or younger, and promoting 
nursing as a career. That's critical for us.
    We also, as part of that program, even though it has not 
been funded, we supported a bridge program for the summer and 
brought in I think about 30 high school students to learn about 
nursing for a week, and they spent time and visited hospitals.
    I mean, so there are ways that we can help do that, but 
it's very difficult to get these grants funded.
    Ms. Rush. And then we've also tried to go to the schools 
that are a majority minority population and talk about nursing. 
Again, one of the drawbacks is you get the people excited, you 
get the students excited. They work--start looking at nursing 
at the junior high level, and then when they get to the 
colleges find out that they cannot get into the nursing 
program. And so they certainly can't just wait to get into some 
type of--or wait to get into the nursing program, so they chose 
another career.
    And that's very understandable for them, because you can't 
just sit and not go to school and not earn money. So it is very 
frustrating, because we are trying to get out. We've recognized 
that our minorities are not going into nursing. We're trying to 
find out why. We're trying to send nurses who are from that 
minority into those schools.
    But it's like the hamster on the wheel, it's a vicious 
cycle. We get them excited, and then they can't get into the 
programs.
    Ms. Carpenter. When we started our accelerated track, how 
many men were in there? About 10 men out of 32. And I think 
there are probably a third of them who were some minority, a 
lot Asian. We have a lot of Asian, some Hispanic.
    So I know that we have worked really hard to try to do 
that. I don't know if we've come up with a solution, but----
    Mr. Porter. Maybe it's not the challenge, maybe we're just 
not capable of keeping up with them.
    And I say that in jest.
    But there's something that we talked about in Greeley 
yesterday--and this isn't minority specific. This is now into 
the recruiting across the board--that the lack of science and 
math skills for some of our students, and I mean primary and 
secondary education, hasn't necessarily been a primary goal.
    And I know when I was in school, I tried to stay away from 
those classes. But that seems to be a problem nationwide. And 
when we speak about the loan forgiveness that we were able to 
successfully work on in Congress, an area of national need is 
also teachers in math and sciences.
    So there's also now the availability to waive some of the--
their loans for those teachers. We have a shortage of teachers 
in math and sciences, so that, I'm sure, contributes to 
students coming out that aren't really educated or don't really 
care much for those fields.
    So I would assume that--do you think that's a problem also?
    Ms. Yucha. Yes, I think that's a problem. We have--we have 
students who come in with weak skills, weak study skills and 
weak math skills. And we wind up--and I believe every school 
does that, we have to actually teach them some simple math 
calculations that we would think at this point would be pretty 
well known.
    I mean, I would also say that some of--because many 
minorities have a different family culture of caring for their 
entire families, it's a struggle for them to focus on full-time 
school. And so that's where I think additional support is 
needed from our end in providing perhaps some educational 
support and tutoring, but extra scholarship money that might 
allow them not to work at the same time that they're going to 
school. I think then they are likely to struggle more because 
they have so many other commitments while trying to go to 
school. So I think that's another issue.
    Mr. Porter. Has the profession looked at, again, with the--
actually the great value of folks that want to take care of 
their family--my gosh, we certainly don't want to discourage 
that. We need more of that, and it's actually something we 
should learn from.
    But with multiple campuses and different fields of studies, 
have we looked at ways to maybe have daycare onsite to help 
maybe some of these families so they can bring their kids, also 
as a training setting for another part of the study of the 
school? Would that help?
    If we--now, as a Member of Congress, we certainly wouldn't 
be mandating it, but maybe that's an area we could help find 
funding for or the tools to help the private sector to be more 
engaged in helping these families with their kids, but also 
train those teachers that are helping the kids at the same 
time.
    Ms. Carpenter. A number of the students do have young 
children and young families that they have to have daycare for, 
and daycare is very expensive, so that I think would be a big 
help.
    The other thing is I think some people don't see themselves 
as college material. They do not see themselves being able to 
go to college and being successful, when they truly could be, 
and it's possible that they might be a first-generation, 
college-going student, and they just have to be encouraged, and 
tutoring and encouragement are big things for them.
    Mr. Porter. What I'd like to ask, and not for today, but if 
we have it--sometime in the next 2 weeks, we can have it for 
the record. But I'd like to have an idea if you were to list 
the top ten reasons why we're not being successful in 
attracting faculty and nurses, because you see the same 
problem.
    If you can kind of put those together for us and maybe 
weight--weigh them a little bit. What percentage is because of 
supporting family, you know, financial challenges? What percent 
is location? You know, if you can kind of do that and give us 
an idea, I think it would be very helpful as we look at key 
areas.
    Now, there may be 20, whatever. Please tell us. But know 
that we also have to be--try to address this with a rifle and 
not necessarily a shotgun in that we want to make sure that we 
can fix certain areas, and we don't want to try to group too 
much together and not have any success at all. So if you can 
find us a few things that you really think we should focus on, 
we will heed your request.
    And I have one more question for this moment. Nevada, 
Colorado is a melting pot, and of course not only culturally, 
but we have one of the fastest growing senior populations and 
retired populations in the country.
    Is there more that we can do to encourage some of the folks 
that are moving here or even are here that have retired to get 
them back into either the classroom setting or even help the 
hospitals more with in-house training? Because one of the 
things we've learned this week is that there are an awful lot 
of graduated nursing professionals that still can't get into 
the field because the professional--the hospitals, the doctors 
want a trained, experienced professional.
    So there's kind of a catch-22 for some of those graduates. 
So is there something that we can do with maybe some of the 
retirees that are coming in to get them involved, to help with 
in-house training?
    Ms. Rush. I know that St. Rose has a--and probably every 
one of our hospitals in the valley has a new-grad program where 
we bring new graduates into the hospital, and we do not 
consider them real nurses for at least three to 6 months where 
they have active training.
    So--and we also offer to returning nurses the same thing. 
We have programs where if someone has not practiced in a number 
of years, he or she can come back, and we assign an experienced 
nurse with them to help them with their skills. So we do have 
that in place.
    We've also--we have the unique location of having quite a 
few retirement communities around our hospital, and we sponsor 
retired nurses teas and bring them in and talk with them about 
what could we do to bring you back into the fold and how could 
we convince some of you all to--even a day a week would be 
helpful or a certain number of hours a week would be helpful.
    So we do make those attempts to bring them back into the 
health-care community.
    Mr. Porter. And I know we ran into some problems with our 
primary and secondary teachers that retired and their 
retirement--and trying to bring them back into the system, it 
can really mess with their existing PERS system.
    Have we run across any nurses with any conflicts with their 
retirement?
    Ms. Rush. Well, that's a comment that they make, and so 
they typically--I mean, we help them calculate how many hours 
they can work so that they're not interfering with the 
retirement. So we make sure that we don't get beyond that 
level.
    Ms. Yucha. And as far as faculty go, I think faculty can 
retire from one job and then move to another job quite easily. 
What I have found in my experience is that when these older 
faculty come to us, they don't want to teach clinical courses 
and they may not be really capable of doing it. I will tell 
you, chasing eight students around a med/surg unit is hard 
work.
    So they'll want to come, and they'll say, I'd like to come 
and teach two doctoral courses and then do my own research. And 
while that would be helpful, it doesn't really help us with the 
nursing shortage. And in addition, I have faculty who those 
doctoral courses are a carrot to keep them in our program.
    So if I hire somebody who is retired to come and teach our 
doctoral program, I'm going to lose some of my other faculty 
who are teaching across all programs.
    So I don't know if you have found that, Connie, of what 
they're willing to teach, but I think when you have a graduate 
and an undergraduate program, that everyone wants to teach in 
the graduate. And so that--that is one thing I'm leery about 
hiring too many people who are retired from elsewhere, unless 
they really want to come here and help us in our undergraduate 
program.
    Mr. Porter. I find that in the primary/secondary schools, a 
lot of teachers that want to go to the next level in the career 
path, they max out and--you know, they have done the masters, 
they have done the doctorate and they have the years, but then 
they kind of run into a wall. So a lot of them will change 
careers and get into the administration.
    Now, because you're a great teacher doesn't necessarily 
mean you will want to be an administrator or that you are 
interested in being an administrator, although some are. But as 
we look at a career path for professional nurses that are in 
practice, I find there's a big disconnect in the career path in 
that why would someone want to leave the nursing--practicing 
nurse and take a 30 or 40,000 a year cut.
    We had some that testified in Colorado that it's 
substantial--and one particular woman was proud that she did 
and was able to, but she said most people can't.
    So what do we need to do to elevate that so that the 
faculties are paid more?
    Ms. Yucha. Well, one of the ways that we've been able to 
double--or to increase our enrollments in the undergraduate is 
by having our faculty work much longer hours, and now they work 
year round. So our salaries year round at UNLV have been raised 
markedly, and so I believe that a masters prepared person 
would, working year round, make at least $90,000 a year, which 
is comparable to clinical.
    I know that that is not true with the other state schools, 
and I will say that this job is very difficult and intensive. 
And I don't know how long faculty will be willing to do that, 
but right now the money is so attractive that they're doing it.
    Ms. Carpenter. I----
    Mr. Porter. Connie, I know you make like 300 or 400,000 a 
year, so----
    Ms. Carpenter. Yeah. Oh, yeah.
    No. I just raised my faculty salaries $10,000, and then I 
find out that that makes Carolyn have to raise hers a little 
bit. You know, I--I think if we had enough faculty--full-time 
faculty that faculty wouldn't have to be working so hard, it 
would really help. And I don't think they're out there.
    This is--this is the worst it's ever been. And we've been 
advertising everywhere that you would advertise for faculty, 
and I'm just not sure they're out there that really want to 
teach in an undergraduate program. Many want to teach in a 
masters program, but not that many in an undergraduate program.
    And we need them teaching in the master program so we can 
get more teachers, so it's kind of a vicious circle, I think.
    Mr. Porter. Congresswoman, I'm sorry I took a little more 
time.
    Ms. Musgrave. Thank you.
    Of course, my passion is academic rigor and allowing 
students, particularly students that you talked about that 
really don't see themselves as college material, I think the 
real success story is when you get rid of that mindset and give 
them the confidence, you know, to excel and to really believe 
that they can go onto school. And I think that academic rigor 
early on gets these kids thinking differently.
    And I know in Colorado, and I'm not sure of the situation 
here but, you know, about 180 school districts around the state 
have different requirements for graduation. And some of them 
have requirements like 1 year of math, which I would call like 
a seventh-grade math level. And, you know, very little science 
classes.
    And my husband was a math science educator for 24 years, 
and you cannot take an 18-year-old that has not been challenged 
in those area and suddenly thrust them in an environment where 
they're really challenged. I mean, most of them will just back 
away. They just say, This is not for me. I can't handle it. 
They have not taken it step by step and gotten that confidence 
level that they need.
    So we certainly in Colorado, and I assume here, need to 
communicate to the districts around the state that, you know, 
we have this need. The need is only getting greater. And it's 
not just in the nursing field. We know that. And we know that 
competitively these students, if they want to earn a good 
living and have benefits for their families in many ways, 
they're going to have to get a good education.
    So we certainly have to address it at that end, and I don't 
know, you know, how you communicate to districts, but I--I hope 
that you go into schools and you talk to them about career 
paths for students and the rigor that is required before 
suddenly the age of 18 or 26 or whatever, and they have the 
ability to make that choice. And so that is a passion.
    I also think that in my district in Colorado, the larger 
minority population is Hispanic, and what an incredible asset 
when you can attract someone into nursing and they can also 
speak Spanish. I mean, my goodness. Because you can have a very 
well-educated nurse that can't communicate with the patient, 
and then what do you do? It exacerbates all of the problems we 
have, and so minority recruitment is just very critical.
    And, you know, really as I look at the nursing profession, 
it's not very different then when I was a very young woman. You 
know, you thought of nurses as woman. And so I don't know what 
can be done to attract more men into the profession, but I 
think that is--especially with patients with just more acute 
illnesses and just, you know, bringing men into the profession 
would be absolutely wonderful.
    Now, I was intrigued to hear about--I believe it was Ms. 
Rush that talked about 100-percent tuition reimbursement? Were 
you the one that mentioned that.
    Could you talk about that?
    Ms. Rush. Up to. Up to. We offer thousands of dollars for 
our employees for tuition reimbursement.
    Ms. Musgrave. And what do they have to do?
    Ms. Rush. A 2-year commitment. And many of our hospitals 
offer full--full tuition with an employment contract 
afterwards. So we--we have--and actually the Nevada 
Organization of Nurse Leaders offers scholarships every year to 
not only undergraduates, but also masters prepared--or nurses 
who are in the masters level program.
    And one of our concerns is that we don't have that many 
people applying for those scholarships. You know, you only get 
a handful of applicants for the scholarships. So we feel that 
on one hand, there is money out there.
    I think as Carolyn talked about, a lot of it is not only 
the scholarship money, but the living expense money. You know, 
that is a big factor, particularly with faculty because for 
faculty, the nurses are already out there working and they're 
using their moneys to live on a daily basis, they're use to 
that lifestyle. So I think that would be one area to certainly 
look at.
    Ms. Yucha. I'm not sure how much that scholarship is that 
NOLA offers. I will tell you that our tuition, I believe, is so 
cheap that--that I don't think a scholarship that pays your 
tuition is very attractive. It doesn't--it's not enough to 
entice somebody to give up an $80,000 job to go to school full 
time if we pay their tuition.
    And that's why I think it's critical that for graduate 
students, we have to raise this up and have some type of 
package of at least 30 or $40,000 that will allow them really 
to go to school. That will make it much more attractive. I 
think it's just too little.
    I'd like to just--your talk about rigor reminded me of 
something else that we deal with here in Las Vegas, which I 
don't know that other states or cities--states deal with as 
much, and that is our undergraduate students can work and make 
a lot of money here in Las Vegas. And so even when they're 
full-time students, they're not really full-time students.
    They're enrolled full time, but they're working full time 
and making a lot of money on the strip in various positions.
    And so even though they're enrolled, they're not focused 
necessarily. And so we--this is more of a struggle that I've 
faced here than any other place, because then when it comes 
time to pass courses, they haven't invested the hours that we 
would have hoped they would invest. And so that's another 
issue. I really think it's critical that for this faculty 
shortage that we do something now about getting students more 
back in the pipeline. And if we don't do that with attracting 
them--and, unfortunately, it means pulling them out of their 
clinical agencies, which is short of nurses anyway, to get them 
into school really focused full time.
    I mean, we can accelerate our masters program. If we had 
sufficient students, we could run it in the summer and get 
these students out in 16 months. But we can't do that with only 
a handful of students in those programs. I think we have the 
capacity to double our enrollment in our masters and our Ph.D. 
Programs if we had more--if we had students who were willing to 
do--to do that.
    Ms. Musgrave. I would also like you to comment on the nurse 
apprenticeship program, please.
    Ms. Rush. OK. We have a program where nursing students 
after they're in their--after they have completed one semester 
of clinical, so they have at least some basic education for the 
bedside, we bring them into the hospital. We will assign them 
one or two preceptors who are RNs. They work side by side with 
the RN.
    We do not consider them a nursing assistant or a helper. 
They work with that nurse throughout their entire course work 
until they graduate. They are paid, and what they do is as they 
learn things in school, they then can do those same tasks with 
the nurse present on the patients.
    Ms. Musgrave. How do the RNs feel about this? Does it 
increase their workload?
    Ms. Rush. No, it doesn't. And we were very careful that it 
would not increase the workload of the RN. So if we're on a--in 
our ICU setting and the nurse has two patients, she will have 
those two--she or he will have those two patients along with 
the nurse apprentice.
    And she spends, obviously, some of her time teaching that 
nurses apprentice, and they'll do the assessments together. And 
it's, What do you hear or What do you think about this patient, 
and then guide them through that assessment. And then they're 
also able to do all of the procedures as long as they have the 
basic education in the school system.
    And it has offered us the ability to then retain those 
nurse apprentices, because they have worked with us, they have 
been in our culture at St. Rose, and they typically will not 
leave and go to another facility. They just, you know, graduate 
from school and graduated from being a nurse apprentice to 
becoming an RN within our system.
    And they have found that those--the nurses who go through 
those programs then when they become RNs advance at a much more 
rapid pace than the student nurses who chose not to do that.
    Ms. Musgrave. What are other health-care professionals, 
such as doctors, doing to elevate the profession of nursing to 
make it more attractive to students and, indeed, to students 
who would go on to be members of faculty? Are they helping in 
any way.
    Ms. Rush. We have had an increased focus on the 
relationship of our physicians and how they treat our nursing 
staff. And I know that our medical executive committee is very 
committed to ensuring that our physicians do not inadvertently 
in the--in the critical nature of the moment perhaps mistreat 
our nurses.
    In fact, if we do have concerns expressed by our nurses, I 
complete an investigation and take it to our medical executive 
committee and action will be taken. Because one of the concerns 
is nurses leaving the profession, and it's cited in the 
literature, is abuse from physicians. And I know that many of 
the hospitals in the community are doing that, no tolerance for 
abuse of not only nurses, but also other of our health-care 
profession teams.
    Ms. Musgrave. I'm done. Thank you.
    Mr. Porter. Actually, you started something, I think it's 
important, and maybe we can take it a step further. Not to put 
you on the spot----
    Ms. Musgrave. But to put you on the spots.
    Ms. Rush. You asked why I wore this pen.
    Mr. Porter. And unfortunately today, you know--or, 
fortunately, we are focusing on faculty, but we've also touched 
upon some of the domino effect and really getting nurses in, 
recruiting, training.
    And I know that today, unlike ever before, there's more 
demands on a registered nurse. The customer is expecting more, 
the hospitals, the doctors setting, they're expecting more. 
Training, technology is in dog years. I mean, computer today or 
a program today is outdated tomorrow, so there are training 
demands.
    There's demands by the insurance companies to reduce 
reimbursements to professionals, so the costs are in question. 
You've got private facilities, you've got public facilities, 
each have, you know, different costs of operation.
    But I realize today more than ever, there are demands on 
nurses that they have never seen before. And not only are they 
not--do I believe they are not elevated to where they should be 
on the level of priority and professionalism, but I'm concerned 
that maybe part of the reason why we're not getting recruits is 
the field is such that it's not as attractive as it once was.
    And if so, is it because we're expecting more or is it 
because of some things that we're not doing to help with that 
feel. That's kind of a long question, but I just want to kind 
of set the stage. Because I know that there are those 
professions that no matter what, they're there, but there are 
those that are wondering, Wow, I don't know if I can do this 
for what I get paid or for the hours.
    Ms. Carpenter. Well, I do know that some people can't do 
12-hour shifts. Older nurses aren't able to do that, and that's 
what we have to do because we have a shortage of RNs. I'm not 
exactly sure what else we need to do, but reducing the shifts 
to 8-hour shifts I think would really assist, if that was 
something that would be possible to do. And I don't know 
whether that's possible to do or not. 12-hour shifts are very 
difficult for some people to do.
    Ms. Rush. We have extended that offer to our nurses. We 
have some units that work a combination of 12- and 8-hour 
shifts. Many of the nurses do not take that. We found that a 
lot of times they're working two jobs, and so they're able to.
    I think when--to talk about the issues and the demands, I 
think with our increased regulations which then requires 
increased documentation, increased auditing, the number of 
lawsuits that are out there, all of those increase the demands 
and takes away from the nurse the ability to be there while--to 
be in the places where we want them to be, which is definitely 
at the bedside and doing those--providing the tender, loving 
care instead of the technical care.
    And I think that those things also play into the demands, 
everything that we have to submit for the reimbursement. And 
not only for the nurses, but also the physicians. I mean, 
they're going through the same things in their offices, and so 
it's almost, you know, for them, increasing the number of 
patients that they're seeing and increasing the amount of 
documentation and the amount of things that they have to 
submit.
    So I think those things also touch upon why nursing isn't 
what nursing needs to be.
    Mr. Porter. The technology portion, we spent quite a bit of 
time in Colorado on the technology. And last week in one of the 
bills that left the House of Representatives and now go goes to 
the Senate for conference, there's some funds in the bill that 
are set aside to do pilot programs across the country with 
technology--medical technology.
    And, again, I mentioned technology changing so rapidly, but 
there are so many errors happening because of the pressure of 
the job, whether in the emergency room or in a hospital or 
whatever, sometimes things aren't written down properly and 
there's more room for error.
    Well, with this program--and we're real excited because 
we're able to target smaller states. So about 25 percent or $25 
million is going to be available for small states to do pilot 
programs and technology.
    We couldn't write in Nevada only because we can't do that. 
If you say the sun shines 360 days a year----
    So it does provide that Nevada may see a couple of million 
dollars for two--or maybe $4 million over 2 years to help with 
medical technology, because I see the wave of the future taking 
pressure off of the practicing nurse as having some of the 
latest technology to make sure that they can give care and be a 
nurse and not a technician.
    So what I see in the future is that with this technology, a 
patient will--may well have web driver health information, 
where that patient is in Las Vegas or in Greeley, Colorado, or 
Humboldt, Iowa, where I grew up, the doctor can pull up on the 
web with a proper pin number, with all the proper privacy 
information like you can on an ATM machine, all of your medical 
records.
    My mom, bless her, she's 84 as of last week, has multiple 
doctors because of her aging, and that's not her challenge. But 
those doctors don't communicate and they don't know what 
prescriptions she's on. I know you guys run into that all the 
time, because you're on the front line providing this.
    But I'm really excited in Nevada that we should be able to 
do a pilot program, assuming it passes back in Congress here 
next week or the next couple of weeks. And I think we're going 
to save lives. And I think we're going to take some pressure 
off of the nursing profession with some new technology.
    And as a--as a part of this, can you imagine how many lives 
we can save if the doctor can pull up with a pin number your 
medical information, what prescriptions you're on. If it's done 
with the computers and the insurance companies, how much less 
paperwork is going to have to be taken care of.
    So I want to add that to one of the positive things that is 
happening. I think Nevada can reap the benefits as being a 
pilot, because we're kind of a small state. And I believe 
Colorado fits into it, because it had to do with the growth--
was Colorado involved? Say yes.
    Unidentified Speaker. I believe so.
    Mr. Porter. Oh, good. I forget to add snow a couple of 
days. But, again, I see that as really critical.
    Now, the hospitals, they're the biggest customers, right, 
for--pardon me. They're the biggest providers for jobs in the 
nursing field? Right?
    Is there anything else that we can do, from a Federal 
Government prospective, to help encourage more of the St. Rose 
type of approach? Because you guys are--I think are a flagship, 
and I'm very proud of what you're doing, but not every hospital 
has that same feeling.
    Is there more things that we can do to encourage hospitals 
to be more--I don't think that educating or hiring the faculty 
or recruiting is just a public sector project. I think we need 
more private involvement.
    Is there anything we can do to help the private sector 
provide more to help nursing and faculty?
    Ms. Yucha. I have an idea, and that is it--I think it would 
be wonderful if a hospital would assign some of their very good 
staff that are bachelor prepared, have those nurses assignments 
be 50 percent to go to school so that the nurse would fifty 
percent do whatever she does or he does in the hospital, but 
the other 50 percent assignment paid would be to go to school 
to get a masters and/or Ph.D.
    Ms. Rush. And then if we followed that, then what the 
Federal Government could do is help the hospital support that. 
Because with the continued decline in reimbursement for our 
patients, it's very difficult to be able to provide the 
additional funding. So I think that that is certainly a way 
that you could help.
    Mr. Porter. And not only in funding, because although we 
spend trillions of dollars and I sometimes wonder where all of 
that money goes, we also can find incentives where--to give you 
advantages to play a bigger role.
    Ms. Rush. And I think--you know, I had originally talked 
about some type of housing and living expenses for our 
students, because that's where we're talking. And it's just--
it's taking them too long to get out because they're going part 
time because they're working full time. So, again, it's not 
just the funding for the schools or for the educational and 
tuition, but it's the living as well.
    Mr. Porter. Well, I'd like to add to your work for the next 
2 weeks something else. As we get assignments from the 
classroom, if you know any other fields that have experienced 
similar challenges, and there certainly are from teachers to--
and even engineers in some represents, but if you know of any 
fields that have addressed this and have some ideas, I 
appreciate you including those for the record also.
    Because I don't want to have to reinvent the wheel all the 
time. There may well be something out there that is happening, 
that is successful. It might be here in Las Vegas, there might 
be something happening that we could kind of model after, which 
would help expedite finding solutions.
    Well, I'm actually finished with my questions.
    Congresswoman, anything else you want to add today?
    Ms. Musgrave. Well, I'm just glad to be here. I appreciate 
the staff so much that has worked on this. I have a couple of 
staff back here. Amanda, I know you're staff.
    It's an honor to serve with you. I appreciate your 
friendship. And this is a nationwide problem. More extreme in 
certain areas than others, but just an urgent need for the 
entire nation.
    So I'm happy to be here and hear your explanation of the 
problems and offering strategies.
    And I hope to continue to work on this. It's been a 
pleasure to be here. Thank you.
    Mr. Porter. Thank you. And the feeling is mutual.
    I said in my opening comments, I think we're in our 
infancy. I really do. And I actually see such great 
opportunities for the future, because the demands are so great. 
But I think that there are a lot of people up for that 
challenge, and they really want to help. They can afford to be 
in the field if the demands are not such that they're not able 
to also raise a family and be a part of the community.
    But I really think we're in an infancy. I think there's so 
many good things that are happening.
    And as I said earlier, one thing about this crises, there 
are a lot of partners that are working together.
    And although we have our own internal problems and I know 
that we don't always agree, but what this field has done so 
successful, unlike most that are in crises, is that you pretty 
much have helped narrow down the problems for us.
    And, again, we address thousands of issue as the Members of 
Congress. And we have to have ADD to be in Congress, because 
every 5 minutes there's something different. But you, 
especially in Nevada and Colorado, have helped us help you, and 
we appreciate that very much.
    So, again, thank you all for being here, to the 
professionals that are here, took time off from work, to our 
friends here at Nevada State College, I want to thank you all 
very much. And please, for those that weren't on the panel 
today, we want to hear from you. And if you could provide us 
some input and some statements for the record, it will help us 
as we move forward.
    So with that, unless I've forgotten anything, we'll adjourn 
the meeting. Thank you all.
    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Statement of Susan Ullrich, RN, MSN, EdD, Director, Touro University-
   Nevada School of Nursing, Henderson, NV, Submitted for the Record

    Chairman Tiberi, Congressman Porter, and other Members of the 
Subcommittee, on behalf of Touro University-Nevada, I appreciate the 
opportunity to submit testimony for the record of your field hearings 
examining how the lack of higher education faculty contributes to 
America's nursing shortage. My name is Susan Ullrich, and I am the 
Director of Touro's new School of Nursing here in Henderson, Nevada. I 
hold a Doctorate in Education from the University of Southern 
California, Los Angeles, a Master of Science in Nursing Administration 
and Education from California State University, Sacramento, and a 
Bachelor of Science in Nursing from the University of Nevada, Reno. I 
have over 30 years of professional experience and currently serve as a 
member of the Southern Nevada Medical Industry Coalition, the Nursing 
Institute of Nevada, and the Nevada Organization of Nurse Leaders.
    The subject matter of the hearing--higher education faculty 
shortages--may sound a little dry, but it is a major problem with acute 
consequences here in Nevada. Touro has chosen to come to Nevada because 
the need for medical professionals, teachers, and other professionals 
is so pressing. As I will emphasize in my statement, part of the 
solution is to provide higher education opportunities in Nevada to 
Nevadans, because these students are much more likely to remain in 
Nevada as nurses, doctors, and teachers. The other part of the problem 
is the focus of your hearing: finding qualified teachers to teach 
nursing students. We are very grateful that the Committee is focusing 
attention on this problem, and Touro is committed to providing part of 
the solution, working with the other nurse training/teaching 
institutions in Southern Nevada.
Touro University-Nevada
    Touro Nevada is sponsored by Touro College, a Jewish-sponsored 
independent institution of higher and professional education founded by 
Bernard Lander, PhD, LHD, and located in New York. Dr. Lander 
established Touro to enrich the Jewish heritage and its contribution to 
American society.
    In 1997, Touro expanded to California, establishing a College of 
Osteopathic Medicine at the former Mare Island Naval Base. The Medical 
School received full accreditation on schedule in 2001. Since its 
founding, the Touro University California Campus has added schools of 
Education, Health Sciences, and Pharmacy. In 2004, Touro University-
California opened a branch campus in Nevada. The Nevada campus includes 
the College of Osteopathic Medicine and training programs for physician 
assistants and in occupational therapy, as well as our new School of 
Nursing.

7America's Nursing Shortage

    Over the past few years, there has been a great deal of press 
regarding the nursing shortage that exists in the United States, 
especially in the State of Nevada. However, the lack of qualified 
nursing faculty as a factor in this shortage has largely gone 
overlooked. Because the faculty shortage contributes so heavily to the 
deficit of nurses, the problems needs urgent attention, and we thank 
the Committee very much for coming to Nevada to highlight the issue.
    The challenge of finding qualified nursing faculty to teach 
qualified nursing students is circuitous. Schools of nursing are unable 
to expand because of limited numbers of qualified faculty. Nursing 
schools need nursing graduates to become faculty in order to replenish 
and grow their faculty numbers to teach more students. While this 
appears to be a ``catch-22'' situation, we should not be rendered 
paralytic.
    I believe there are three strategies that may make a marked impact 
on nursing faculty recruitment, which will create increased 
opportunities to educate more nurses:
(1) Allow baccalaureate prepared nurses to teach clinical courses 
        within baccalaureate curricula.
    Currently, the State of Nevada mandates that a faculty member 
teaching in a baccalaureate degree program must be prepared at the 
master's level. It is often the case that nursing faculty members are 
masters-prepared, but have very little experience clinically. While 
advanced education is indisputably valuable to teachers, so is clinical 
experience. Further, education is no substitute for clinical 
experience, whereas clinical experience may substitute in some measure 
for education.
    Allowing baccalaureate-prepared nurses to provide instruction in a 
clinical setting can benefit students greatly. Who would be better to 
teach baccalaureate students clinical skills than those who provide 
patient care at the bedside twelve hours a day? By transitioning these 
working nurses into academia, we have an opportunity to ``grow our 
own'' faculty, to provide nursing students with current and relevant 
clinical experiences, and to strengthen the relationship between 
service and education settings. The practical aspects of health care 
delivery are a special focus of Touro's education programs, and we 
believe strongly in the contribution of clinical experiences to overall 
education.
(2) Develop Master's level curricula that are user-friendly and 
        minimize the barriers to accessibility.
    Most nurses do not work on a set nine-to-five schedule; most work 
on twelve-hour shifts. Because of class schedules, it can be extremely 
difficult for nurses to continue to work and pursue graduate programs 
at the same time. Also, in states like Nevada with large rural 
populations, some nurses who may have an interest in pursuing post-
graduate education do not have access to programs nearby. Offering 
courses on-line or via video streaming allows nursing students 
immediate access to course materials during times that can be 
accommodated with their demanding work schedules.
(3) It is essential to bridge the salary gap between service and 
        education settings.
    Progress has been made in this area but there is much work left to 
be done. There is little financial incentive for nurses to leave the 
bedside where they can earn $90,000/year while working three twelve-
hour shifts in addition to one or two per diem days per week. The cost 
of advanced degrees in time and money adversely tilts the scale in 
favor of continuing work at the bedside instead of pursuing a degree in 
nursing education. Leveling salaries between service and education 
might answer the question: ``Why would I want to incur the cost of 
going back to school for an advanced degree when I can make more money 
working three days a week?''
Conclusion
    The question foremost in my mind isn't why the shortage exists, but 
rather, what are we going to do about it? How are we going to remediate 
the fact that Nevada has the lowest number of nurses per 100,000 
residents of any state in the United States? Without swift and 
effective action, this problem will intensify exponentially. Nevada 
must lead in solving this problem because the nursing shortage (and the 
shortages of other health care professionals) erodes the quality of 
life for Nevada residents, and undermines the conditions that brought 
so many people to live in Nevada in the first place.
    Touro came to Nevada because of these needs; our leaders want to 
help solve these problems by educating Nevadans in Nevada. Our nursing 
program is specifically designed to allow nurses to obtain advanced 
degrees in nursing without leaving the state, and to allow other 
college graduates to obtain a nursing masters on an expedited schedule. 
We look forward to working with you and with the other educational and 
clinical institutions in Nevada to solve these problems and serve the 
community.
                                 ______
                                 

  Statement of Helen Vos, RN, MS, Chief Nursing Officer, MountainView 
           Hospital, Las Vegas, NV, Submitted for the Record

    Good morning. My name is Helen Vos, RN, MS. I am the Chief Nursing 
Officer at MountainView Hospital here in Las Vegas. I also am a member 
of the Nevada State Board of Nursing and am currently serving as the 
President for the Board. Thank you for the opportunity to address you 
briefly about the particular issues of the nursing shortage and nursing 
faculty shortage that exist in Southern Nevada.
    The nursing shortage in the United States and internationally is 
well documented. The State of Nevada has an increased challenge in 
dealing with the nursing shortage due to the rapidly increasing 
population in the state, particularly Southern Nevada. In the 2001 US 
Health and Human Services Department report, the average nurse per 
population ratio in the US was 7.82. Nevada's nurse per population 
ratio was 5.2, the lowest in all 50 states plus DC. Interestingly the 
Bureau of Labor Statistics published RN salary information in May 2003 
and the average wage per hour rand of Nevada was 12 out of 51 states 
plus DC.
    Coupled with the existing shortage of nurses is the continued 
population growth, particularly in Southern Nevada. In 1996 
MountainView Hospital the first new hospital in Las Vegas in 20 years 
opened. In the following 9 years, four additional new hospitals have 
opened and each existing hospital in the county has completed some type 
of inpatient bed expansion. All of these new beds and services require 
additional nurses to provide care.
    During the 2003 Nevada State Legislative session, a mandate was 
given to double nursing school enrollment in the State of Nevada. All 
the higher education institutions immediately began the planning to 
accomplish this mandate.
    The Nevada State Board of Nursing also reviewed the regulatory 
requirements for faculty as they exist in the Nurse Practice Act. In an 
effort to maintain quality education but also recognize that competent 
faculty could have a variety of Masters or Doctoral level preparation, 
the Board of Nursing made some modifications in 2004. Previously, all 
faculty teaching in a nursing program was required to have a Master of 
Science in Nursing (MSN) degree. These requirements have now been 
modified to require 75% of the faculty to have an MSN degree and the 
other 25% to have a Bachelor of Science in Nursing plus a masters in a 
related field. The intent of these changes was clearly focused on 
addressing the issue of faculty shortages without compromising the 
quality of the education received by nursing students.
    In summary, intense recruitment efforts by healthcare organizations 
in the state and efforts to increase enrollment in nursing programs has 
been ongoing in Nevada for at least 10 years. With each new hospital 
that opens in Southern Nevada, the question always heard is, ``Where 
are we going to find the nurses?'' In a study by John Packham, PhD, a 
researcher at the University of Nevada Reno School of Medicine, titled 
``2005 Survey of Licensed Registered Nurses in Nevada'' he estimated 
the RN to population ratio improved in Nevada from 520 per population 
to 548 per population. This appears to be a step in the right direction 
but as the results were broken down into regions of the state, southern 
Nevada was 530 per population, Northern Nevada was 702 per population 
and Rural/Frontier Nevada was an alarming 337 per population. These 
results indicate that Nevada has a long ways to go to meet the health 
care needs of our growing and aging population. Without competent 
Nursing Faculty it will be impossible to continue to grow and meet the 
ever increasing demand for new nurses in the state. Any and all efforts 
to assist in addressing these issues are greatly appreciated.
    Thank you for your time and attention.

                                 <all>

</pre></body></html>
